APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2019-2054, 2019-2081
————
HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs-Appellants,
v.
MINERVA SURGICAL, INC.,
Defendant-Cross-Appellant.
————
Appeals from the United States District Court
for the District of Delaware in
No. 1:15-cv-01031-JFB-SRF,
Senior Judge Joseph F. Bataillon.
————
Decided: April 22, 2020
————
Before WALLACH, CLEVENGER, and STOLL,
Circuit Judges.
————
OPINION
————
Additional views filed by Circuit Judge STOLL.
STOLL, Circuit Judge.

2a
These appeals require us to grapple with the
doctrine of assignor estoppel, an equitable doctrine
that prevents a party who assigned a patent to another
from later challenging the validity of the assigned
patent in district court. There are two patents-in-suit
and each presents a different assignor estoppel issue.
For the first patent, we consider whether the district
court erred in holding that assignor estoppel does not
bar the assignor from relying on our court’s affirmance
of the Patent Trial and Appeal Board’s final decision
invalidating the asserted patent claims in an inter
partes review proceeding. For the second patent, we
review the district court’s summary judgment that
assignor estoppel bars the assignor from asserting
invalidity of the assigned second patent in district
court. Based on our precedent, which we are bound to
follow, we conclude that the district court did not err
in either respect.
BACKGROUND
I
Hologic, Inc. and Cytyc Surgical Products, LLC
(collectively, “Hologic”) sued Minerva Surgical, Inc. for
infringement of certain claims of its U.S. Patent Nos.
6,872,183 and 9,095,348, which relate to procedures
and devices for endometrial ablation. Endometrial
ablation is a treatment wherein the lining of the
uterus is destroyed in order to treat menorrhagia, or
abnormally heavy menstrual bleeding.
The ’183 patent is titled “System and Method for
Detecting Perforations in a Body Cavity,” and
describes and claims methods for determining the
presence of uterine perforations, or holes, prior to
ablation. “[T]he presence of a perforation in the uterus
could result in inadvertent passage of the ablation
device through the perforation and out of the uterus

3a
into the bowel.” ’183 patent col. 1 ll. 38–41. The ’183
patent solves this problem by “provid[ing] a
mechanism by which a physician can evaluate
whether perforations are present in [the uterus]
before” ablation. Id. at col. 1 ll. 43–46. Claim 9, the
only asserted independent claim of the ’183 patent,
recites:
9. A method of detecting a perforation in a uterus,
comprising the steps of:
passing an inflation medium into the uterus;
monitoring for the presence of a perforation in the
uterus using a pressure sensor;
if no perforation is detected during the monitoring
step, permitting ablation of the uterus using an
ablation device; and
if a perforation is detected during the monitoring
step, preventing ablation of the uterus.
Id. at col. 8 ll. 39–48.
The ’348 patent is titled “Moisture Transport System
for Contact Electrocoagulation,” and describes and
claims an ablation device. The claimed device
eliminates the problem of “steam and liquid buildup at
the ablation site” associated with prior art devices, and
also “allows the depth of ablation to be controlled” and
“automatically discontinues ablation once the desired
ablation depth has been reached.” ’348 patent col. 2 ll.
25–30. Claim 1, the only claim of the ’348 patent at
issue in this appeal, recites:
1. A device for treating a uterus comprising:
an elongate member having a proximal portion
and a distal portion, the elongate member
comprising

4a
an outer sleeve and an inner sleeve slidably and
coaxially disposed within the outer sleeve;
an applicator head coupled to the distal portion,
the applicator head defining an interior volume
and having a contracted state and an expanded
state, the contracted state being configured for
transcervical insertion and the expanded state
being configured to conform to the shape of the
uterus, the applicator head including one or more
electrodes for ablating endometrial lining tissue
of the uterus;
a handle coupled to the proximal portion of the
elongate member, wherein the handle comprises
a frame, a proximal grip and a distal grip pivotally
attached to one another at a pivot point and
operably coupled to the applicator head so that
when the proximal grip and the distal grip are
moved closer together, the applicator head
transitions from the contracted state to the
expanded state;
a deflecting mechanism including flexures
disposed within the applicator head, the flexures
including first and second internal flexures and
first and second external flexures, the first and
second external flexures being coupled to the
outer sleeve and the first and second internal
flexures being coupled to the inner sleeve,
wherein the deflecting mechanism is configured
so that translating the inner sleeve relative to the
frame causes the applicator head to transition
from the contracted state to the expanded state;
and
an indicator mechanism operably coupled to the
inner sleeve, the indicator mechanism configured
to indicate a dimension of the uterus.

5a
Id. at col. 19 ll. 9–42 (emphases added to highlight
disputed claim terms on appeal).
II
In 1993, Csaba Truckai co-founded the company
NovaCept, Inc. In the late 1990s, Mr. Truckai and his
design team at NovaCept developed a medical device
called the NovaSure system. NovaSure, which
received approval for commercial distribution from the
U.S. Food and Drug Administration in September
2001, detects perforations in the uterus by applying
carbon dioxide gas to the uterus and measuring any
flow of gas out of the uterus. NovaSure uses an
application head with a triangular shape designed to
conform to the shape of the uterus and which ablates
the endometrial lining throughout the cavity in two
minutes or less. NovaSure also provides a moisture
transport function with a vacuum used to remove
steam and moisture from the cavity during energy
delivery. NovaSure is indicated for use in premenopausal women with menorrhagia due to benign causes
for whom childbearing is complete. It is undisputed
that NovaSure incorporates the patented technology
in this case.
Both the ’183 and ’348 patents list Mr. Truckai as an
inventor. In August 1998, Mr. Truckai assigned his
interest in U.S. Patent Application No. 09/103,072, an
application from which the ’348 patent claims priority,
as well as all continuation applications, to NovaCept.
In February 2001, Mr. Truckai assigned his interest in
U.S. Patent Application No. 09/710,102, an application
from which the ’183 patent claims priority, as well as
all continuation applications, to NovaCept.
In 2004, Cytyc Corporation acquired NovaCept for
$325 million. NovaCept assigned its patent rights,
including rights to continuation applications, to Cytyc.

6a
Hologic acquired Cytyc in 2007. The continuation
application that issued as the ’183 patent was filed in
May 2004 and issued in March 2005. The continuation
application that issued as the ’348 patent was filed in
August 2013 and issued in August 2015. Hologic is the
current assignee of the ’183 and ’348 patents and
markets and sells the NovaSure system throughout
the United States.
Mr. Truckai left NovaCept and, in 2008, founded the
accused infringer in this case, Minerva. Mr. Truckai
served as Minerva’s President, Chief Executive Officer,
and a member of its Board of Directors. Mr. Truckai
and others at Minerva developed the Endometrial
Ablation System (EAS), which received FDA approval
in 2015. Minerva’s EAS is approved for the same
indication as Hologic’s NovaSure system. Minerva
began commercial distribution of the EAS in August
2015.
III
In November 2015, Hologic sued Minerva in the U.S.
District Court for the District of Delaware, alleging
that Minerva’s EAS and the use thereof infringed
certain claims of the ’183 and ’348 patents. In addition
to asserting the invalidity defenses of lack of
enablement and failure to provide an adequate written
description in district court, Minerva also filed
petitions for IPR in the Patent Office, challenging the
patentability of the asserted ’183 patent claims, as
well as those of the ’348 patent, in view of prior art.
The Board instituted review of the ’183 patent, but
denied review of the ’348 patent.
Shortly after the district court issued its claim
construction decision in April 2017, the Board issued
its final written decision in the parallel IPR proceeding, holding the ’183 patent claims unpatentable

7a
as obvious. See generally Minerva Surgical, Inc. v.
Hologic, Inc., No. IPR2016-00868, 2017 WL 6404966
(P.T.A.B. Dec. 15, 2017). Hologic appealed the Board’s
decision to this court.
Around the same time, Minerva requested that the
district court dismiss as moot Hologic’s claim for
infringement of asserted claims 7, 9, 11, 13, and 14 of
the ’183 patent. The district court denied Minerva’s
request, concluding that the “patent has not been
cancelled” and the Board’s “finding is on appeal and
does not have preclusive effect as to this action unless
and until the appeal is resolved.” Hologic, Inc. v.
Minerva Surgical, Inc., 325 F. Supp. 3d 507, 519 (D.
Del. 2018) (Summary Judgment Op.).
Hologic, for its part, moved for summary judgment
that the doctrine of assignor estoppel bars Minerva
from challenging the validity of the ’183 and ’348
patent claims in district court. The district court
granted Hologic’s motion for both patents. After
“[c]onsidering the balance of equities and the relationship of Minerva and Truckai,” the district court found
that “Truckai is in privity with Minerva” and that
“assignor estoppel applies to Minerva’s defenses to
Hologic’s patent infringement claims.” Summary
Judgment Op., 325 F. Supp. 3d at 524–25. Specifically,
the court relied on “[u]ndisputed evidence” that Mr.
Truckai founded Minerva, he “used his expertise to
research, develop, test, manufacture, and obtain
regulatory approval for the Minerva EAS,” his “job
responsibilities as Minerva’s President and CEO
included bringing the accused product to market to
directly compete with Hologic,” and he “executed broad
assignments of his inventions to NovaCept, which was
then sold to Hologic’s predecessor for $325 million.” Id.
at 523. In addition, the district court granted summary
judgment of no invalidity in Hologic’s favor. The

8a
district court also granted summary judgment of
infringement of the asserted ’183 and ’348 patent
claims.
The case then proceeded to a jury trial on the issues
of willful infringement, damages, and certain of
Minerva’s state law counterclaims. The jury found, in
relevant part, that Hologic was entitled to
$4,200,529.75 in lost profits and $587,138.48 in
royalties for sales not included in lost profits—for a
total award of $4,787,668.23—based on Minerva’s
infringement of the ’183 and ’348 patent claims. Over
Minerva’s objection, the jury was not asked to separately apportion damages between the two patents.
The jury also found that Minerva’s infringement of
claim 1 of the ’348 patent was not willful. On August
13, 2018, the district court entered judgment on the
verdict, subject to revision pursuant to any rulings on
post-trial motions. After trial, Hologic moved for a
permanent injunction to enjoin Minerva from further
infringement of the asserted ’183 patent claims.
The ’348 patent expired on November 19, 2018. Five
months later, this court affirmed the Board’s decision
that the ’183 patent claims are invalid as obvious
under 35 U.S.C. § 103. See generally Hologic, Inc. v.
Minerva Surgical, Inc., 764 F. App’x 873 (Fed. Cir.
2019) (Hologic). Thereafter, the district court denied
Hologic’s motion for a permanent injunction as moot in
light of this court’s Hologic decision. Hologic, Inc. v.
Minerva Surgical, Inc., No. 15-1031, 2019 WL 1958020,
at *4 (D. Del. May 2, 2019) (JMOL Op.). The district
court also denied Hologic’s motions for supplemental
damages, enhanced damages, and ongoing royalties
for infringement of the asserted ’183 patent claims as
moot. Id.
With respect to the ’348 patent, the district court
noted Minerva’s argument that the jury had not even

9a
found willful infringement, id. at *2, and denied
Hologic’s motion for enhanced damages, finding that
“the damages are adequate to compensate Hologic for
infringement through the life of the patent,” id. at *10.
It awarded Hologic supplemental damages for
Minerva’s continued infringement of claim 1 of the
’348 patent “from the last-produced date of sales (April
1, 2018) to the date the ’348 patent expired (November
19, 2018),” determined that Hologic was “entitled to
recover a 16.1% royalty for [those] infringing sales,”
and ordered Minerva to submit an accounting of those
infringing sales. Id. at *10–11. The court declined,
however, to award an enhanced royalty for the postverdict sales because “Hologic has not shown that
enhanced damages are warranted.” Id. at *10. The
court also awarded Hologic $270,533 in pre-judgment
interest on the jury’s damages award, and concluded
that Hologic would be awarded post-judgment interest
“at the legal rate from and after August 13, 2018.” Id.
The court denied Minerva’s motion for judgment as a
matter of law of no damages or, alternatively, for a new
trial on reasonable royalty damages. The court then
ordered the parties to each submit a proposed final
judgment consistent with its decision.
Finally, the district court addressed the impact of
this court’s Hologic decision on the jury’s damages
award and the district court’s ruling on assignor
estoppel. Specifically, the district court determined
that the Hologic decision “d[id] not affect the jury
verdict” because “a finding that the method claims [of
the ’183 patent] are not valid does not affect the
finding of infringement as to the apparatus claim” of
the ’348 patent, and the “jury’s damages determination can be adequately supported by the finding of
infringement of Claim 1 of the ’348 patent.” Id. at *3.
The district court further held that this court’s

10a
“findings as to the ’183 patent (method claims) do not
affect the [district court’s] findings of assignor estoppel
on the asserted claim of the ’348 patent.” Id. at *4
(footnote omitted).
In its final judgment, the district court awarded
Hologic pre-judgment interest on the jury’s
$4,787,668.23 damages award “in the amount of
$270,533, plus postjudgment interest at the statutory
rate of 2.44% under 35 U.S.C. § 1961(a)” in accordance
with its ruling on post-trial motions. Final Judgment
at 1, Hologic, Inc. v. Minerva Surgical, Inc., No. 151031 (D. Del. June 3, 2019), ECF No. 621 (Final
Judgment). The district court also awarded Hologic
supplemental
damages
in
the
amount
of
$1,629,304.08—the amount proposed by Minerva in its
proposed final judgment. The district court further
awarded pre-judgment interest on the supplemental
damages award calculated “from the date of
infringement to August 13, 2018, (D.I. 520), plus postjudgment interest thereafter at the legal rate under 28
U.S.C. § 1961 until such time as the judgment is paid.”
Id. at 1–2.
Hologic and Minerva appeal. We have jurisdiction
pursuant to 28 U.S.C. § 1295(a)(1).
DISCUSSION
This case presents various issues on appeal and
cross-appeal. We start by addressing the assignor
estoppel issues. We then turn to Minerva’s challenge
to the district court’s claim construction, Minerva’s
challenge to the jury’s damages award, Hologic’s
appeal of the district court’s supplemental damages
award, and Hologic’s challenge to the district court’s
award of pre- and post-judgment interest.
I

11a
We first address Hologic’s challenge to the district
court’s application of collateral estoppel based on our
affirmance of the Board’s holding of invalidity of the
’183 patent claims in Hologic. Hologic asserts that
assignor estoppel precludes Minerva from relying on
this court’s Hologic decision to escape liability for
infringement. It argues that “the final outcome of the
IPR is irrelevant to the district court proceeding” and
that “[t]o hold otherwise would be to hold that the
America Invents Act (‘AIA’) abrogated the assignor
estoppel doctrine in a district court infringement
action.” Appellant’s Br. 36. Based on our precedent, we
disagree.
A
This court first examined and affirmed the vitality
of the doctrine of assignor estoppel in Diamond
Scientific Co. v. Ambico, Inc., 848 F.2d 1220 (Fed. Cir.
1988). We defined assignor estoppel as “an equitable
doctrine that prevents one who has assigned the rights
to a patent (or patent application) from later
contending that what was assigned is a nullity.”
Diamond Sci., 848 F.2d at 1224. We explained that the
“estoppel also operates to bar other parties in privity
with the assignor, such as a corporation founded by the
assignor.” Id. (citation omitted). We also cited early
Supreme Court cases addressing the doctrine,
including Westinghouse Electric & Manufacturing Co.
v. Formica Insulation Co., 266 U.S. 342, 45 S.Ct. 117,
69 L.Ed. 316 (1924) and Scott Paper Co. v. Marcalus
Manufacturing Co., 326 U.S. 249, 66 S.Ct. 101, 90
L.Ed. 47 (1945). See id. at 1222–23. In both
Westinghouse and Scott Paper, the Supreme Court
carved out exceptions to the general assignor estoppel
doctrine. But the Court did not abolish the doctrine.
In Diamond Scientific, we recognized that some
courts questioned the vitality of the assignor estoppel

12a
doctrine following the Supreme Court’s decision
abolishing licensee estoppel in Lear, Inc. v. Adkins,
395 U.S. 653, 666, 89 S.Ct. 1902, 23 L.Ed.2d 610
(1969). See id. at 1223–24. We concluded, however,
that nothing in Lear eliminated assignor estoppel and
that an important distinction existed between
assignors and licensees:
The public policy favoring allowing a licensee to
contest the validity of the patent is not present in
the assignment situation. Unlike the licensee,
who, without Lear might be forced to continue to
pay for a potentially invalid patent, the assignor
who would challenge the patent has already been
fully paid for the patent rights.
Id. at 1224.
We acknowledged the “public policy encouraging
people to challenge potentially invalid patents” and
“disfavoring the repression of competition by the
enforcement of worthless patents,” but we nonetheless
held that assignor estoppel serves important purposes.
Id. at 1224–25. In doing so, we identified four common
justifications for applying the doctrine: “(1) to prevent
unfairness and injustice; (2) to prevent one [from]
benefiting from his own wrong; (3) by analogy to
estoppel by deed in real estate; and (4) by analogy to a
landlord-tenant relationship.” Id. at 1224 (alteration
in original) (quoting Cooper, Estoppel to Challenge
Patent Validity: The Case of Private Good Faith vs.
Public Policy, 18 Case W. Res. L. Rev. 1122 (1967)). We
also emphasized the longstanding reasoning behind
the doctrine that “an assignor should not be permitted
to sell something and later to assert that what was sold
is worthless, all to the detriment of the assignee.” Id.
Stated another way, “it is the implicit representation
by the assignor that the patent rights that he is
assigning (presumably for value) are not worthless

13a
that sets the assignor apart from the rest of the world
and can deprive him of the ability to challenge later
the validity of the patent.” Id. Thus, it “could work an
injustice against the assignee” to “allow the assignor
to make that representation at the time of the
assignment (to his advantage) and later to repudiate
it (again to his advantage).” Id.
Since Diamond Scientific, this court has continued
to apply the doctrine in a variety of circumstances,
often citing prevention of “unfairness and injustice” as
the primary justification for its application. See, e.g.,
Mentor Graphics Corp. v. EVE-USA, Inc., 851 F.3d
1275, 1280–83 (Fed. Cir. 2017) (affirming grant of
summary judgment that a company founded by the
patent’s inventors was barred from challenging the
validity of the patent asserted by the inventors’ former
employer and assignee); Pandrol USA, LP v. Airboss
Ry. Prods., Inc., 424 F.3d 1161, 1166–67 (Fed. Cir.
2005) (affirming the district court’s exclusion of an
assignor-inventor’s testimony as to the invalidity of his
own patent on the ground of assignor estoppel); Mentor
Graphics Corp. v. Quickturn Design Sys., Inc., 150
F.3d 1374, 1377–80 (Fed. Cir. 1998) (affirming grant
of a preliminary injunction where the assignee showed
a likelihood of success on validity based on the district
court’s grant of summary judgment that the original
assignor and its wholly owned subsidiary were barred
from challenging validity); Shamrock Techs., Inc. v.
Med. Sterilization, Inc., 903 F.2d 789, 793–96 (Fed.
Cir. 1990) (affirming grant of summary judgment that
the patent’s inventor and the company he joined as
“Vice President in charge of Operations” were barred
from challenging the validity of the patent asserted by
the inventor’s former employer and assignee).
Consistent with the Supreme Court’s guidance in
Westinghouse and Scott Paper, however, we have

14a
recognized certain limits to the doctrine. For instance,
although estopped parties “cannot challenge the
validity of” the patent at issue, “assignor estoppel does
not limit their ability to defend themselves in other
ways,” including “arguing that the patentee is itself
collaterally estopped from asserting a patent found
invalid in a prior proceeding.” Mentor Graphics, 150
F.3d at 1379 (first citing Blonder–Tongue Lab., Inc. v.
Univ. of Ill. Found., 402 U.S. 313, 91 S.Ct. 1434, 28
L.Ed.2d 788 (1971); then citing Foster v. Hallco Mfg.
Co., 947 F.2d 469, 481–83 (Fed. Cir. 1991)). In
addition, an estopped party “may also argue for a
narrow claim construction, or that the accused devices
are within the prior art and therefore cannot infringe.”
Id. at 1380 (first citing Westinghouse, 266 U.S. at 351,
45 S.Ct. 117; then citing Scott Paper, 326 U.S. at 257–
58, 66 S.Ct. 101).
B
Based on our precedent and the limits it places on
the assignor estoppel doctrine, we conclude that
assignor estoppel does not preclude Minerva from
relying on the Hologic decision to argue that the ’183
patent claims are void ab initio.
We are mindful of the seeming unfairness to Hologic
in this situation. Although Minerva would have been
estopped from challenging the validity of the ’183
patent claims in district court, it was able to challenge
their validity in an IPR proceeding and, hence,
circumvent the assignor estoppel doctrine. Minerva
had the right to do so under the AIA and this court’s
precedent. This court has held that the doctrine of
assignor estoppel does not bar an assignor from filing
a petition for IPR. Arista Networks, Inc. v. Cisco Sys.,
Inc., 908 F.3d 792, 804 (Fed. Cir. 2018). In Arista, the
patent owner argued that assignor estoppel barred the
assignor-petitioner’s IPR challenge to the patent’s

15a
validity. Id. at 798. We interpreted the statute at
issue, 35 U.S.C. § 311(a)—which provides that “a
person who is not the owner of a patent” may file an
IPR—to determine whether Congress intended for
assignor estoppel to apply in an IPR proceeding. Id. at
802–03. We concluded that the plain language of the
statute was unambiguous and provided that “an
assignor, who is no longer the owner of a patent, may
file an IPR petition as to that patent.” Id. at 803.
While we understand Hologic’s predicament, we
nevertheless conclude that the district court did not
abuse its discretion in denying Hologic its requested
injunctive and monetary relief following a finding of
patent infringement. See Robert Bosch LLC v. Pylon
Mfg. Corp., 659 F.3d 1142, 1147 (Fed. Cir. 2011)
(denial of a permanent injunction is reviewed for abuse
of discretion). Generally, “when a [patent] claim is
cancelled, the patentee loses any cause of action based
on that claim, and any pending litigation in which the
claims are asserted becomes moot.” Fresenius USA,
Inc. v. Baxter Int’l, Inc., 721 F.3d 1330, 1340 (Fed. Cir.
2013). Because the ’183 patent claims are invalid,
Hologic cannot assert those claims or seek ongoing
monetary or injunctive relief based on infringement.
Our affirmance of the Board’s invalidity decision in
Hologic is dispositive of the validity of the ’183 patent
claims, regardless of how the validity question came to
this court, and regardless of whether assignor estoppel
bars Minerva from challenging the patent’s validity in
this district court case.
Our conclusion is further supported by XY, LLC v.
Trans Ova Genetics, L.C., 890 F.3d 1282 (Fed. Cir.
2018), in which we addressed the impact of our
concurrent affirmance of invalidity on other pending
actions involving the same patent. XY involved an
appeal from a district court’s judgment following a jury

16a
trial. Id. at 1285–86. Similar to this case, there was a
parallel IPR proceeding involving the same patent, in
which the Board had held the asserted claims invalid.
Id. at 1294. This court held sua sponte that the patent
owner was collaterally estopped from asserting the
patent “in any further proceedings” in view of the
court’s concurrent affirmance of the Board’s invalidity
decision. Id. at 1294–95. As in XY, this court’s
affirmance of the Board’s invalidity decision in Hologic
“renders final a judgment on the invalidity of the [’183
patent], and has an immediate issue-preclusive effect
on any pending or co-pending actions involving the
patent,” including the instant action. Id. at 1294.
Hologic cites American Fence Co. v. MRM Security
Systems, Inc., 710 F. Supp. 37 (D. Conn. 1989), as an
example of how “district courts have suggested that
assignor estoppel would control” in district court even
when there is a determination of invalidity in an IPR.
Appellant’s Br. 37. Similar to this case, the assignee in
American Fence sued the assignor and the company
the assignor created for patent infringement. 710 F.
Supp. at 39. The district court held that assignor
estoppel prevented the defendants from challenging
the validity of the patents-in-suit. Id. at 42. The
district court also denied the defendants’ request to
stay the proceedings pending reexamination of one of
the patents, stating that “[e]ven if upon reexamination
the U.S. Patent Office finds that the . . . patent is
invalid, the defendants will be unable to assert that
finding” because of assignor estoppel. Id. But
American Fence is not binding on this court, and the
section of the opinion on which Hologic relies is
contrary to Mentor Graphics. There, we held that even
an estopped assignor may argue that “the patentee is
itself collaterally estopped from asserting a patent

17a
found invalid in a prior proceeding.” Mentor Graphics,
150 F.3d at 1379 (citations omitted).
Accordingly, we affirm the district court’s denial of
Hologic’s motions for a permanent injunction, enhanced
damages, and ongoing royalties for Minerva’s infringement of the ’183 patent claims because Hologic is
collaterally estopped from asserting infringement of
these claims.
II
We next consider Minerva’s assertion that the
district court erred in holding that assignor estoppel
precludes Minerva from challenging the validity of
claim 1 of the ’348 patent. We review a district court’s
application of the equitable doctrine of assignor
estoppel for an abuse of discretion. MAG Aerospace
Indus., Inc. v. B/E Aerospace, Inc., 816 F.3d 1374,
1376 (Fed. Cir. 2016) (citing Pandrol, 424 F.3d at
1165). We conclude that the district court did not
abuse its discretion in applying assignor estoppel here.
As an initial matter, we decline Minerva’s invitation
to “abandon the doctrine” of assignor estoppel entirely.
Cross-Appellant’s Br. 67. Minerva contends that the
doctrine is inconsistent with Lear, in which the
Supreme Court abolished the doctrine of licensee
estoppel. Minerva argues that “[a]n assignee who
seeks protection against future competition from an
assignor need simply negotiate a covenant not to
compete in their agreement.” Id. When addressing this
same argument in EVE-USA, we declined to read Lear
as “demolish[ing] the doctrinal underpinnings of
assignor estoppel.” EVE-USA, 851 F.3d at 1283
(citation omitted). In EVE-USA, we noted that our
Diamond Scientific decision “emphasized the continued vitality of the doctrine of assignor estoppel after
Lear.” Id. (citing Diamond Sci., 848 F.2d at 1222–26);

18a
see also Arista, 908 F.3d at 802. We similarly decline
at this time to read Lear as eliminating the doctrine of
assignor estoppel.
Although we recognize that assignor estoppel is not
a “broad equitable device susceptible of automatic
application,” Diamond Sci., 848 F.2d at 1225–26, we
agree with the district court that the equities weigh in
favor of its application in this case. The facts here are
analogous to those in Diamond Scientific, Shamrock,
and other cases in which an inventor executes broad
assignments to his employer, leaves his employer,
founds or takes on a controlling role at a competing
company, and is directly involved in the alleged
infringement. Minerva disputed none of the pertinent
facts below or on appeal. Mr. Truckai “executed a
broad assignment of his patent rights to NovaCept and
later sold NovaCept to Hologic’s predecessor for $325
million.” Summary Judgment Op., 325 F. Supp. 3d at
524. Thus, NovaCept “received appreciable value” for
the patents at issue. Mentor Graphics, 150 F.3d at
1378. Mr. Truckai then “founded Minerva” and “used
his expertise to research, develop, test, manufacture,
and obtain regulatory approval for the Minerva EAS.”
Summary Judgment Op., 325 F. Supp. 3d at 523. Mr.
Truckai’s “job responsibilities as Minerva’s President
and CEO included bringing the accused product to
market to directly compete with Hologic.” Id.
Minerva also does not challenge the district court’s
finding that Minerva is in privity with Mr. Truckai—
the original assignor and Minerva’s founder,
President, and CEO. See Diamond Sci., 848 F.2d at
1224 (“[E]stoppel also operates to bar other parties in
privity with the assignor, such as a corporation
founded by the assignor.” (citation omitted)). Instead,
Minerva contends that “Hologic is deploying assignor
estoppel to shield its unwarranted expansion of the

19a
patent’s scope from the invalidity arguments created
by its own overreach.” Cross-Appellant’s Br. 68.
Minerva emphasizes that Hologic, not Mr. Truckai,
prosecuted claim 1 of the ’348 patent. The continuation
application from which the ’348 patent issued was filed
in 2013, after Mr. Truckai had left NovaCept and
founded Minerva. Minerva asserts that Hologic
broadened the claims during prosecution and after Mr.
Truckai’s assignment, and that it would be unfair to
block Mr. Truckai (or Minerva) from challenging the
breadth of those claims.
We find Minerva’s argument unpersuasive. In
Diamond Scientific, we considered it “irrelevant that,
at the time of the assignment,” the inventor’s “patent
applications were still pending” and that assignee
Diamond “may have later amended the claims in the
application process (a very common occurrence in
patent prosecutions), with or without [the inventor’s]
assistance.” 848 F.2d at 1226. It is true, as Minerva
observes, that in Diamond Scientific we noted that the
Supreme Court “observed that the scope of the right
conveyed in the assignment of patent rights before the
granting of the patent ‘is much less certainly defined
than that of a granted patent, and the question of the
extent of the estoppel against the assignor of such an
inchoate right is more difficult to determine than in
the case of the patent assigned after its granting.’ ” Id.
(quoting Westinghouse, 266 U.S. at 352–53, 45 S.Ct.
117). We also noted, however, that the Supreme Court
“found it unnecessary to decide the question” and
“merely suggested that ‘[t]his difference might justify
the view that the range of relevant and competent
evidence in fixing the limits of the subsequent estoppel
should be more liberal than in the case of an
assignment of a granted patent.’ ” Id. (alteration in

20a
original) (quoting Westinghouse, 266 U.S. at 353, 45
S.Ct. 117).
To the extent Hologic “may have broadened the
claims” in the application that issued as the ’348
patent after Mr. Truckai’s assignment “beyond what
could be validly claimed in light of the prior art,” the
Supreme Court’s and this court’s precedents allow
Minerva to “introduce evidence of prior art to narrow
the scope of” claim 1 so as to bring its accused product
“outside the scope of” claim 1. Id. (citing Westinghouse,
266 U.S. at 350, 45 S.Ct. 117). Thus, “[t]his exception
to assignor estoppel also shows that estopping
[Minerva] from raising invalidity defenses does not
necessarily prevent [it] from successfully defending
against [Hologic’s] infringement claims.” Id.
Because the district court did not abuse its discretion
in applying the doctrine of assignor estoppel, we affirm
the district court’s grant of summary judgment of no
invalidity as to claim 1 of the ’348 patent.
III
We next consider Minerva’s challenge to the district
court’s constructions of two terms in claim 1 of the ’348
patent. Claim construction based on the intrinsic
evidence is a question of law that this court reviews de
novo. Trustees of Columbia Univ. v. Symantec Corp.,
811 F.3d 1359, 1362 (Fed. Cir. 2016) (“The construction of claim terms based on the claim language, the
specification, and the prosecution history are legal
determinations.” (citing Teva Pharms. USA, Inc. v.
Sandoz, Inc., 574 U.S. 318, 328, 135 S.Ct. 831, 190
L.Ed.2d 719 (2015))). Minerva contends that the
district court erred in its constructions of “applicator
head” and “indicator mechanism” and further that
Minerva’s accused EAS product does not infringe
under the proper constructions. Minerva requests that

21a
this court remand to the district court with instructions to enter a judgment of noninfringement. Because
we discern no error in either of the court’s constructions, we deny Minerva’s request.
The district court construed the term “applicator
head” in claim 1 of the ’348 patent to mean “[a] distal
end portion of an ablation device that applies energy
to the uterine tissue.” Hologic, Inc. v. Minerva
Surgical, Inc., No. 15-1031, 2017 WL 1483305, at *2
(D. Del. Apr. 24, 2017) (Claim Construction Op.). The
court rejected Minerva’s proposed construction of
“applicator head” to require “an applicator having a
permeable or absorbent tissue contacting surface into
which moisture is drawn.” Id. at *2 n.6. It noted that
Minerva “presented extensive argument for reading
[certain] limitations from the specification into the
claims” relating to “shortcomings of the prior art
methods” with respect to permeability, but concluded
that “such disclosures do not rise to the level of
disclaimer, sufficient to narrow the disputed claim
limitation as desired by” Minerva. Id. We agree.
Neither the claim nor the specification describes the
“applicator head” as being permeable or requiring
moisture removal. To be certain, the specification
emphasizes the importance of moisture removal. But
neither the plain claim language “applicator head” nor
the specification includes a moisture removal requirement in the applicator head. Minerva emphasizes
that an embodiment of the invention includes an
“electrode carrying means” formed of a material that
is “permeable to moisture,” ’348 patent col. 5 ll. 52–57,
but this appears to be a component of the ablation
device other than the claimed “applicator head.” For
all these reasons, we agree with the district court’s
claim construction.

22a
The district court construed the term “indicator
mechanism” in claim 1 of the ’348 patent to mean “[a]
mechanism configured to indicate a dimension.” Claim
Construction Op., 2017 WL 1483305, at *3. Minerva
argues, as it did below, that the court’s construction is
too broad and that the term requires displaying
uterine widths in “units of measure.” Id. at *3 n.10. To
support its broader construction, the district court
relied on the second embodiment described in the
specification, wherein the “ablation device . . . includes
a measurement device for easily measuring the
uterine width and for displaying the measured width
on a gauge.” Id. at *3 (emphasis added) (quoting ’348
patent col. 14 ll. 33–36). The district court also cited
Figure 32b of the ’348 patent, which shows a “dial face”
that “includes calibration markings corresponding to
an appropriate range of uterine widths.” Id. (emphasis
added) (quoting ’348 patent col. 14 ll. 47–49).
We adopt the district court’s construction of
“indicator mechanism.” Like the district court, we are
unpersuaded by Minerva’s attempt to narrow the
claim scope to require a dimension. First of all,
Minerva’s proposed construction is inconsistent with
the plain language of claim 1. See ’348 patent col. 19 ll.
40–42 (reciting “an indicator mechanism operably
coupled to the inner sleeve, the indicator mechanism
configured to indicate a dimension of the uterus”).
Moreover, we agree with the district court that
“[n]othing in the specification suggests that applicant
intended to limit ‘an indicator mechanism’ to devices
that solely display uterine widths in ‘units of
measure.’ ” Claim Construction Op., 2017 WL
1483305, at *3 n.10. Accordingly, we discern no error
in the district court’s claim construction.
We have considered Minerva’s additional arguments
in support of its proposed claim constructions, but do

23a
not find them persuasive. Because the district court
correctly construed the disputed terms in claim 1 of the
’348 patent, we affirm the district court’s grant of
summary judgment of infringement.
IV
We turn to Minerva’s assertion that the district
court erred in awarding damages to Hologic based on
Minerva’s infringement of claim 1 of the ’348 patent
alone, where the jury verdict did not apportion
damages between the ’348 and ’183 patents and where
the ’183 patent claims were held invalid following the
jury verdict. We discern no reversible error in the
district court’s decision.
“The general rule is that when a ‘jury was told it
could rely on any of two or more independent legal
theories, one of which was defective,’ the general
verdict must be set aside.” WesternGeco L.L.C. v. ION
Geophysical Corp., 913 F.3d 1067, 1073 (Fed. Cir.
2019) (citations omitted). “In a situation—such as this
one—where the jury rendered a single verdict on
damages, without breaking down the damages
attributable to each patent, the normal rule would
require a new trial as to damages.” Verizon Servs.
Corp. v. Vonage Holdings Corp., 503 F.3d 1295, 1310
(Fed. Cir. 2007) (citing Memphis Cmty. Sch. Dist. v.
Stachura, 477 U.S. 299, 312, 106 S.Ct. 2537, 91
L.Ed.2d 249 (1986)); see also DDR Holdings, LLC v.
Hotels.com, L.P., 773 F.3d 1245, 1262 (Fed. Cir. 2014)
(vacating the damages award upon holding the claims
of one of the two patents-in-suit invalid as anticipated
and noting that its decision “could warrant a new trial
on damages” (citing Verizon, 503 F.3d at 1310)).
We have recognized, however, an exception to this
general rule. A single damages award “can be
sustained” if, despite the fact that some of the asserted

24a
claims were held invalid or not infringed subsequent
to the award, “undisputed evidence” demonstrated
that the sustained patent claim was necessarily
infringed by all of the accused activity on which the
damages award was based. WesternGeco, 913 F.3d at
1074. In such cases, “we apply a harmlessness analysis
similar to our approach in the case of erroneous jury
instructions.” Id. (citation omitted); see also Chrimar
Holding Co., LLC v. ALE USA Inc., 732 F. App’x 876,
886 (Fed. Cir. 2018) (holding that a new trial to
determine damages on a patent-by-patent basis was
unnecessary because the same royalty damages
applied whether the claims of one or three asserted
patents were infringed). For the reasons that follow,
we conclude that a departure from the general rule is
warranted in this case.
In each of WesternGeco, Verizon, and DDR, this court
vacated the damages award and remanded to the district court to determine in the first instance whether a
new trial on damages was warranted based on this
court’s invalidity or noninfringement ruling. See
WesternGeco, 913 F.3d at 1075; Verizon, 503 F.3d at
1310; DDR, 773 F.3d at 1262. By contrast, the district
court in this case addressed the issue of apportionment
and determined that the jury verdict on damages was
“adequately supported by the finding of infringement
of Claim 1 of the ’348 patent.” JMOL Op., 2019 WL
1958020, at *3. The district court’s determination is
supported by undisputed evidence. Hologic’s damages
expert explained to the jury that the same royalty rate
he used in his damages calculation would apply to
either the ’183 patent or ’348 patent, “individually or
the two patents collectively,” since they “both cover the
entire procedure and device respectively.” J.A. 30439
at 1084:7–25. The expert was then cross-examined
about his reasoning. Thus, Hologic presented evidence

25a
to the jury that the damages award could be supported
if either or both of the ’183 and ’348 patents’ claims
were infringed and valid. Minerva did not present any
contrary evidence. Accordingly, we conclude that a
departure from the general rule requiring a new trial
is warranted in this case.
Minerva asserts that it asked for a jury instruction
on apportionment but that its request was denied. The
district court reasoned, however, that Minerva had not
presented any evidence to the jury explaining why
apportionment was necessary. See J.A. 31961–64 at
2298:4–2301:5. When asked during oral argument on
appeal whether there was any evidence on apportionment other than the testimony by Hologic’s expert,
Minerva’s counsel could not identify anything in the
record. Oral Arg. at 17:35–21:19, http://oralarguments.
cafc.uscourts.gov/default.aspx?fl=2019-2054.mp3.
Likewise, following oral argument, this court did not
receive any supplemental briefing identifying any
testimony or other evidence to rebut Hologic’s expert’s
testimony.
Because Hologic’s expert’s testimony remains
undisputed, we see no error in the district court’s
conclusion that the jury’s royalty award should stand.
We have considered Minerva’s additional arguments
concerning the jury’s damages award, including its
award of lost profits, but we do not find them
persuasive. Accordingly, we affirm the district court’s
denial of Minerva’s motion for judgment as a matter of
law of no damages or, alternatively, for a new trial on
reasonable royalty damages.
V
We next consider Hologic’s assertion that the district
court erred in denying Hologic’s requests for: (1)
supplemental damages based on all of Minerva’s

26a
infringing sales prior to the expiration of the ’348
patent; (2) an increase in the royalty rate for postverdict infringing sales; and (3) an enhancement of
that rate under 35 U.S.C. § 284. We review a district
court’s decision to award or deny supplemental or
enhanced damages for an abuse of discretion. Presidio
Components, Inc. v. Am. Tech. Ceramics Corp., 875
F.3d 1369, 1382 (Fed. Cir. 2017) (citing WBIP, LLC v.
Kohler, Co., 829 F.3d 1317, 1339 (Fed. Cir. 2016)); see
also Prism Techs. LLC v. Sprint Spectrum L.P., 849
F.3d 1360, 1377–79 (Fed. Cir. 2017). We conclude that
the district court did not abuse its discretion in its
award of supplemental damages.
Hologic argues that the district court undercounted
the number of infringing sales and, specifically, that
the court should have included $4.011 million from the
sales of a certain “design-around” product that
Minerva began selling in June 2018. Appellant’s Br.
58–59. We disagree. Hologic is not entitled to supplemental damages based on sales of products that
Hologic did not accuse of infringement. Indeed, the
district court on summary judgment stated that it
“need not address whether Minerva’s ‘new’ handle
design would infringe Hologic’s ’348 Patent” because
the new product “is not alleged to be infringing
Hologic’s patent.” Summary Judgment Op., 325 F.
Supp. 3d at 529. The jury was not asked to consider
the design-around product for purposes of either
infringement or determining the damages award.
Thus, the district court correctly excluded sales of
Minerva’s design-around product from its supplemental damages award.
Hologic next contends that the district court should
have increased the royalty rate from 16.1% to 20% for
infringing sales made after August 13, 2018—the date
the district court entered judgment on the jury’s

27a
verdict. “[A]n assessment of prospective damages for
ongoing infringement should ‘take into account the
change in the parties’ bargaining positions, and the
resulting change in economic circumstances, resulting
from the determination of liability.’ ” ActiveVideo
Networks, Inc. v. Verizon Commc’ns, Inc., 694 F.3d
1312, 1343 (Fed. Cir. 2012) (quoting Amado v.
Microsoft Corp., 517 F.3d 1353, 1362 (Fed. Cir. 2008)).
Here, the jury did not make any “determination of
liability.” Id. Instead, the district court entered
summary judgment of infringement and thus it, rather
than the jury, made the “determination of liability.”
We agree with Minerva that no change in the parties’
bargaining positions or economic circumstances could
have “result[ed] from the determination of liability”
between the jury’s verdict and the district court’s
ruling on post-trial motions because no determination
of liability occurred during that time period. Id. Thus,
the district court did not abuse its discretion in
declining to increase the royalty rate for ongoing
royalties for infringement of claim 1 of the ’348 patent.
Lastly, Hologic contends that the district court
should have enhanced the royalty rate for the
supplemental damages from 20% to 30% pursuant to
§ 284. District courts have discretion to “increase the
damages up to three times the amount found or
assessed.” 35 U.S.C. § 284. “Enhanced damages are
generally only appropriate in egregious cases of
misconduct, such as willful, wanton, or malicious
behavior.” Presidio, 875 F.3d at 1382 (citing Halo
Elecs., Inc. v. Pulse Elecs., Inc., ––– U.S. ––––, 136 S.
Ct. 1923, 1932, 195 L.Ed.2d 278 (2016)). An award of
enhanced damages, however, “does not necessarily
flow from a willfulness finding.” Id. (first citing Halo,
136 S. Ct. at 1932; then citing WBIP, 829 F.3d at 1341
n.13). Rather, “[d]iscretion remains with the court to

28a
determine whether the conduct is sufficiently
egregious to warrant enhanced damages,” and “courts
should consider the overall circumstances of the case.”
Id. (first citing WBIP, 829 F.3d at 1341 n.13; then
citing Halo, 136 S. Ct. at 1933).
Here, the jury determined that Minerva did not
willfully infringe claim 1 of the ’348 patent.
Additionally, there was neither a finding by the
district court of any post-verdict willful infringement,
nor a request by Hologic that the district court make
such a finding. Contrary to Hologic’s assertion, a
district court is not required to award enhanced
damages absent a finding of willful infringement. Nor
is it required to discuss the factors set forth in Read
Corp. v. Portec, Inc., 970 F.2d 816 (Fed. Cir. 1992), in
deciding whether to award enhanced damages absent
a finding of willful infringement. See Presidio, 875
F.3d at 1382. Moreover, we are not persuaded by
Hologic’s unsupported assertion, raised for the first
time during oral argument, that the Read factors
supplant a willfulness finding in the post-verdict
context. See Oral Arg. at 8:26–9:33. Thus, the district
court did not abuse its discretion in declining to
enhance the royalty rate for ongoing royalties for
infringement of claim 1 of the ’348 patent.
For all these reasons, we affirm the district court’s
decision regarding supplemental damages.
VI
Finally, we hold that the district court erred by using
an incorrect judgment date in its calculation of preand post-judgment interest on the supplemental
damages award.
We apply regional circuit law in reviewing a
determination of pre- and post-judgment interest on a
damages award. Taltech Ltd. v. Esquel Enters. Ltd.,

29a
604 F.3d 1324, 1335 (Fed. Cir. 2010). The Third Circuit
reviews such determinations de novo. Addie v. Kjaer,
836 F.3d 251, 258 (3d Cir. 2016). The relevant
statutory provision, 28 U.S.C. § 1961(a), provides that
“[i]nterest shall be allowed on any money judgment in
a civil case recovered in a district court,” and that
“[s]uch interest shall be calculated from the date of the
entry of the judgment, at a rate equal to the weekly
average 1-year constant maturity Treasury yield, as
published by the Board of Governors of the Federal
Reserve System, for the calendar week preceding[ ] the
date of the judgment.” 28 U.S.C. § 1961(a). Generally,
“post-judgment interest on a particular award only
starts running when a judgment quantifying that
award has been entered.” Travelers Cas. & Sur. Co. v.
Ins. Co. of N. Am., 609 F.3d 143, 175 (3d Cir. 2010)
(citation omitted).
In its May 2, 2019 ruling on post-trial motions, the
district court determined that Hologic was entitled to
supplemental damages and ordered Minerva to
“submit an accounting of infringing sales from April 1,
2018, to November 19, 2018.” JMOL Op., 2019 WL
1958020, at *10–11. In its opinion, however, the court
did not quantify the amount of supplemental damages
to which Hologic was entitled. Pursuant to § 1961(a),
both parties then submitted proposed final judgments
requesting that interest on the supplemental damages
award be calculated from the “date of entry of this
Final Judgment.” J.A. 36251, 36259. Contrary to
Minerva’s assertion, in its submission to the district
court, Hologic did not propose an August 13, 2018 date
as the relevant date for interest on the supplemental
damages award. Instead, it proposed August 13, 2018
as the relevant date for interest on the jury’s damages
award. See J.A. 36251.

30a
The district court’s final judgment specifies August
13, 2018 as the date for awarding pre- and postjudgment interest for supplemental damages for the
’348 patent. Final Judgment at 1–2 (entering judgment in favor of Hologic for “supplemental damages for
Minerva’s infringing sales from April 1, 2018, through
August 13, 2018, plus prejudgment interest on that
amount at the prime rate compounded quarterly from
the date of infringement to August 13, 2018, (D.I. 520),
plus post-judgment interest thereafter at the legal rate
under 28 U.S.C. § 1961 until such time as the
judgment is paid” (emphasis added)). The “judgment
quantifying [the supplemental damages] award,”
however, was not entered until June 3, 2019—the date
of the final judgment. Travelers, 609 F.3d at 175. We
agree with Hologic that the district court should have
used June 3, 2019 as the relevant date for awarding
pre- and post-judgment interest.
We conclude that the district court erred in
determining the relevant date for calculating pre- and
post-judgment interest on the supplemental damages
award. We therefore vacate the district court’s interest
award and remand for the district court to award prejudgment interest on the supplemental damages
award from the date of infringement to June 3, 2019,
and post-judgment interest thereafter.
CONCLUSION
For the foregoing reasons, we affirm the district
court’s denial of Hologic’s motions for a permanent
injunction, enhanced damages, and ongoing royalties
for infringement of the asserted ’183 patent claims. We
also affirm its denial of Hologic’s requests for supplemental damages to include Minerva’s redesigned
product, and for increased and enhanced supplemental
damages. Finally, we affirm the district court’s
summary judgment of no invalidity and infringement,

31a
summary judgment that assignor estoppel bars
Minerva from challenging the validity of the asserted
’348 patent claim, and denial of Minerva’s motion for
judgment as a matter of law of no damages or,
alternatively, for a new trial on reasonable royalty
damages.
We vacate the district court’s award of pre- and postjudgment interest on the supplemental damages
award, and remand for the district court to calculate
the interest award in accordance with this decision.
AFFIRMED-IN-PART, VACATED-IN-PART, AND
REMANDED.
COSTS
No costs.
STOLL, Circuit Judge, additional views.
I write separately to highlight and question the
peculiar circumstance created in this case by this
court’s precedent, which the panel is bound to follow.
In Arista, we held that the judge-made doctrine of
assignor estoppel does not apply in the context of an
inter partes review. In other words, an assignor who
sold his patent rights may file a petition for IPR
challenging the validity of that patent. Arista
Networks, Inc. v. Cisco Sys., Inc., 908 F.3d 792, 803–04
(Fed. Cir. 2018). At the same time, we continue to bar
assignors from challenging in district court the
validity of the patents they assigned. See, e.g., Mentor
Graphics Corp. v. EVE-USA, Inc., 851 F.3d 1275,
1280–83 (Fed. Cir. 2017). Our precedent thus presents
an odd situation where an assignor can circumvent the
doctrine of assignor estoppel by attacking the validity
of a patent claim in the Patent Office, but cannot do
the same in district court. Do the principles underlying
assignor estoppel—unfairness in allowing one who

32a
profited from the sale of the patent to attack it—apply
in district court but not in Patent Office proceedings?
Should we change the application of the doctrine in
district court, or should we revisit our construction of
the America Invents Act and reevaluate our interpretation of the statute as prohibiting the doctrine of
assignor estoppel?
Given the odd circumstance created in this case, I
suggest that it is time for this court to consider en banc
the doctrine of assignor estoppel as it applies both in
district court and in the Patent Office. We should seek
to clarify this odd and seemingly illogical regime in
which an assignor cannot present any invalidity
defenses in district court but can present a limited set
of invalidity grounds in an IPR proceeding.1

1 A petitioner in an IPR proceeding may request to cancel as
unpatentable one or more claims of a patent, but “only on a
ground that could be raised under section 102 or 103 and only on
the basis of prior art consisting of patents or printed publications.” 35 U.S.C. § 311(b).

33a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
1:15CV1031
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
v.
MINERVA SURGICAL, INC.,
Defendant.
————
Signed 06/28/2018
————
MEMORANDUM OPINION
————
Joseph F. Bataillon, Senior United States District
Judge
This matter is before the court on the following
motions: defendant Minerva Surgical, Inc.’s
(“Minerva”) Motion to Dismiss the ’183 Patent and the
’989 Patent under Federal Rule of Civil Procedure
12(b)(1) or for judgment on the pleadings under Rule
12(c) (D.I. 275);1 Minerva’s motion for partial
summary judgment on: invalidity; non-infringement;
no willfulness; and no unfair competition (D.I. 277);
1 The ’989 Patent is no longer at issue. (D.I. 367, Joint
[Proposed] Pretrial Order).

34a
and plaintiffs Hologic, Inc.’s and Cytyc Surgical
Products, LLC’s (collectively “Hologic”) motions for
summary judgment of no invalidity (D.I. 287);
infringement (D.I. 288); and assignor estoppel (D.I.
289).2 Minerva also seeks a summary judgment that
the doctrine of equivalents does not apply to Minerva’s
redesign, arguing prosecution history estoppel
(“PHE”). (D.I. 278, Brief at 44–47).3
I.

FACTS

This is an action for patent infringement and related
state-law claims.4 Hologic alleges that Minerva infringes U.S. Patent No. 6,872,183 (“the ’183 Patent”),
2 Also pending is Hologic’s motion to strike Minerva’s
“Appendix A” (D.I. 278–1), “Supplemental Exhibit A” (D.I. 320–
1), and “Second Supplemental Exhibit A” (D.I. 341–1) (D.I. 346).
Hologic contends the exhibits should not be considered by the
court in rendering its summary judgment decision because they
include impermissible attorney argument and exceed the court’s
limits on page length. The court finds the exhibits are more in the
nature of demonstrative exhibits. Whether properly the subject of
a motion to strike or not, the court has not relied on the exhibits
and the motion will be denied as moot. The parties also request
oral argument on the pending motions (D.I. 354 and 359). The
court finds oral argument is not necessary and the motion will be
denied.
3 Minerva is relying on a redesign of its handle as a
noninfringing alternative for purposes of damages.
4 Hologic also alleges Minerva has engaged in (i) unfair
competition in violation of under 15 U.S.C. § 1125; (ii) deceptive
trade practices under 6 Del. C. § 2532; (iii) unfair competition
under Delaware common law; and (iv) tortious interference with
Hologic’s business relationships under Delaware common law.
Counterclaims against Hologic, alleging that it has engaged in (i)
unfair competition under 15 U.S.C. § 1125(a) & (c); (ii) deceptive
trade practices under 6 Del. C. § 2532; (iii) unfair competition
under the Delaware common law; (iv) interference with contract/
business advantage; (v) breach of contract; and (vi) trade libel.
Hologic has moved to bifurcate the trial with respect to those

35a
titled “System and Method for Detecting Perforations
in a Body Cavity,” filed May 24, 2004, and issued
March 29, 2005, and U.S. Patent No. 9,095,348 (“the
’348 Patent”), titled “Moisture Transport System for
Contact Electrocoagulation,” filed August 8, 2013, and
issued August 4, 2015 (collectively “the Patents-inSuit”). The asserted patent claims that remain at issue
are claims 7, 9, 11, 13, and 14 of the ’183 Patent and
claim 1 of the ’348 Patent.5 (D.I. 367, Joint [Proposed]
Final Pretrial Order at 13; oral order dated June 15,
2018).
Additional facts are set out in the court’s memorandum order on the plaintiff’s motion for preliminary
injunction (D.I. 127) and need not be repeated here.
Briefly, the technology at issue in this litigation
involves instruments and procedures for endometrial
ablation, a treatment wherein the lining of the uterus
is destroyed in order to treat Menorrhagia, or abnormally heavy menstrual bleeding. In the late 1990s,
NovaCept Corporation (“NovaCept”) under the direction of Csaba Truckai (“Truckai”) and his design team
developed the NovaSure system (“NovaSure”) in the
late–1990s. Prior to an ablation procedure, NovaSure
uses computerized monitoring to detect perforations in
the uterus, by applying C02 gas to the uterus and
measuring any flow of gas out of the uterus. NovaSure
employs an application head with a triangular shape
designed to conform to the shape of the uterus, which
ablates the endometrial lining throughout the cavity
in two minutes or less. NovaSure also provides a
“moisture transport” function with a vacuum used to
remove steam and moisture from the cavity during
energy delivery. Minerva has developed and brought
issues (D.I. 374). In light of this disposition, the court finds the
motion should be denied.
5

Claim 1 of the ’348 patent is a system claim.

36a
to market a new technology for the treatment of
abnormal uterine bleeding, the Minerva Endometrial
Ablation System (“EAS” or “accused product”).
The ’348 patent is directed to “an apparatus and
method of ablating and/or coagulating tissue, such as
that of the uterus or other organ.” It uses “an electrode
array,” which “includes a fluid permeable elastic
member preferably formed of a metallized fabric
having insulating regions and conductive regions
thereon.” To use the apparatus, “the electrode array is
positioned in contact with tissue to be ablated,
ablation energy is delivered through the array to the
tissue to cause the tissue to dehydrate, and moisture
generated during dehydration is actively or passively
drawn into the array and away from the tissue.” (D.I.
281–7, Ex. 40, ’348 patent, 2:34–45). The specification
describes two exemplary embodiments. The first
embodiment describes an ablation device comprised
generally of three major components—RF applicator
head, main body, and handle. (Id. at 4:55–58) The
applicator head includes an array of electrodes formed
on the surface of an electrode carrying means. (Id. at
4:58–61). “The second embodiment differs from the
first embodiment primarily in its electrode pattern
and in the mechanism used to deploy the electrode
applicator head or array.” (Id. 11:53–54). Aspects of
the two “exemplary embodiments and their methods of
operation may be combined without departing from
the scope of the present invention.” (Id. at 11:50–58).
Claim 1 of the ’348 Patent states:
A device for treating a uterus comprising:
an elongate member having a proximal portion
and a distal portion, the elongate member
comprising an outer sleeve and an inner sleeve

37a
slidably and coaxially disposed within the outer
sleeve;
an applicator head coupled to the distal portion, the applicator head defining an interior
volume and having a contracted state and an
expanded state, the contracted state being
configured for transcervical insertion and the
expanded state being configured to conform to
the shape of the uterus, the applicator head
including one or more electrodes for ablating
endometrial lining tissue of the uterus;
a handle coupled to the proximal portion of the
elongate member, wherein the handle comprises a frame, a proximal grip and a distal grip
pivotally attached to one another at a pivot
point and operably coupled to the applicator
head so that when the proximal grip and the
distal grip are moved closer together, the
applicator head transitions from the contracted
state to the expanded state;
a deflecting mechanism including flexures
disposed within the applicator head, the
flexures including first and second internal
flexures and first and second external flexures,
the first and second external flexures being
coupled to the outer sleeve and the first and
second internal flexures being coupled to the
inner sleeve, wherein the deflecting mechanism is configured so that translating the
inner sleeve relative to the frame causes the
applicator head to transition from the contracted state to the expanded state; and
an indicator mechanism operably coupled to
the inner sleeve, the indicator mechanism

38a
configured to indicate a dimension of the
uterus.
(Id. at 19:9–42) (emphasis added).
The ’183 patent is directed to “a system and method
for detecting perforations in a body cavity.” (D.I. 281–
7, Ex. 39). The system delivers a fluid (either liquid or
gas) “into a body cavity to slightly pressurize the
cavity. A pressure sensing system monitors the
pressure within the cavity for a predetermined test
period. If cavity pressure is not substantially
sustained during the test period, the physician is
alerted.” In the preferred form of the system, the
perforation detection functionality is provided with an
RF [radio frequency] ablation system. (’183 patent,
1:49–62).
What is claimed in Claim 1 of the ’183 Patent is:
1. A method of ablating a uterus, comprising the
steps of:
inserting an ablation device into a uterus;
flowing an inflation medium into the uterus;
monitoring for the presence of a perforation in the
uterus using a pressure sensor; and
treating the interior of the uterus using the
ablation device.
(Id. at 8:10–14). Asserted Claim 7 recites:
The method of claim 1, further including the step
of preventing performance of the treating step
until after the monitoring step has been carried
out.
(Id. at 8:30–33) Asserted Claim 9 recites:
A method of detecting a perforation in a uterus,
comprising the steps of:

39a
passing an inflation medium into the uterus;
monitoring for the presence of a perforation in
the uterus using a pressure sensor;
if no perforation is detected during the monitoring step, permitting ablation of the uterus
using an ablation device; and
if a perforation is detected during the monitoring step, preventing ablation of the uterus.
(Id. at 8:39–48). Dependent claim 11 recites:
The method of claim 9, further including the step
of:
if a perforation is detected during the monitoring
step, activating a notification signal alerting t e
user to the presence of a perforation in the uterus.
(Id. at 8:54–57). Dependent claim 13 limits claim 9
reciting, “wherein the inflation medium is introduced
using the ablation device.” (Id. at 8:60–61). Claim 14
states: “The method of claim 9, wherein the ablation
device is an RF ablation device.” (Id. at 8:63–65).
The specification explains that “a pressure sensing
system” is “fluidly coupled to the medical device via [a]
pressure detection/signal line” and used to monitor the
pressure within the body cavity. Fluid or gas is
delivered to the body cavity and the pressure sensing
system detects “whether elevated pressure can be
maintained above a predetermined threshold level
over a predetermined period of time. If it cannot, the
user is alerted that there may be a perforation in the
organ.” (Id. at 2:36–44) The pressure sensor “monitors
pressure in the pressure signal line . . . and delivers
the signal to the microprocessor.” (Id. at 5:23–25). The
specification explains that during testing “[w]hen the

40a
pressure at gauge 84 rises and remains above
50mmHg for 4 seconds”, the test is passed.
The court has construed the relevant claims of the
Patents-in-Suit as follows:
Pressure sensor:6 A device whose input detects,
directly or indirectly, a force per unit area and
outputs a corresponding electrical signal.
Applicator head:7 A distal end portion of an
ablation device that applies energy to the uterine
tissue.
Indicator mechanism:8 A mechanism configured
to indicate a dimension.
One or more electrodes:9 One or more electrical
conductors.
(D.I. 227, Memorandum Order at 2–5). In addition, the
term “monitoring,” found in the ’183 patent, claims 7,
9, and 11, requires no construction. Id. at 3.
The parties agree to the following additional facts.
(D.I. 367–1, Joint [Proposed] Final Pretrial Order, Ex.
1, Joint Statement of Uncontested Facts). Plaintiff
Hologic is a corporation organized and existing under
the laws of the State of Delaware with a principal place
of business in Marlborough, Massachusetts. Plaintiff
Cytyc Surgical Products, LLC (“Cytyc”) is a limited
liability company organized and existing under the
laws of the Commonwealth of Massachusetts with a
principal place of business in Marlborough, Massachusetts. Cytyc is a wholly-owned subsidiary of Hologic.
6

Found in ’183 patent, claim 9.

7

Found in ’348 patent, claim 1.

8

Found in ’348 patent, claim 1.

9

Found in ’348 patent, claim 1.

41a
Defendant Minerva is a corporation organized and
existing under the laws of the State of Delaware with a
principal place of business in Redwood City, California.
The parties agree the ’183 Patent was issued by the
United States Patent and Trademark Office (“USPTO”)
on March 29, 2005, and expires on November 10,
2020.10 Russel M. Sampson, Mike O’Hara, Csaba
Truckai, and Dean T. Miller are the named inventors
of the ’183 Patent.
Csaba Truckai assigned his interest in the ’183
Patent to NovaCept on February 9, 2001. In February
2001, Csaba Truckai assigned his interest in U.S.
Application No. 09/710,102, an application to which
the ’183 Patent claims priority, to NovaCept. Hologic
is the owner by assignment of the ’183 Patent. Hologic
acquired the ’183 Patent from Cytyc on January 15,
2016.
The ’348 Patent was issued by the USPTO on August
4, 2015 and expires on November 19, 2018.11 Cytyc
10 The ’183 Patent claims priority to Provisional Application
No. 60/164,482, filed November 10, 1999 (i.e., the ’183 Priority
Date). Original Utility Application No. 09/710,102, filed
November 10, 2000, issued as U.S. Patent No. 6,554,780 (“the ’780
Patent”). Application No. 10/400,823, filed March 27, 2003, was a
continuation of Application No. 09/710,102, and issued as U.S.
Patent No. 6,743,184 (“the ’184 Patent”). Application No.
10/852,684, filed May 24, 2004, was a continuation of Application
No. 10/400,823, and issued as U.S. Patent No. 6,872,183 (“the ’183
Patent”). The ’780, ’184, and ’183 Patents all share a common
specification. Only the claims of each are different.
11 The ’348 Patent claims priority to Provisional Application
No. 60/084,791, filed May 8, 1998 (i.e., the ’348 Priority Date).
Original Utility Application No. 09/103,072, filed June 23, 1998,
issued as U.S. Patent No. 6,813,520 (“the ’520 Patent”).
Application No. 10/959,771, filed October 6, 2004 was a divisional
of Application No. 09/103,072, and issued as U.S. Patent No.
7,604,633 (“the ’633 Patent”). Application No. 12/581,506, filed

42a
listed Csaba Truckai, Russel Mahlon Sampson,
Stephanie Squarcia, Alfonso Lawrence Ramirez, and
Estela Hilario as named inventors on the face of the
’348 Patent.
In August 1998, Csaba Truckai assigned his interest
in U.S. Application No. 09/103,072, an application to
which the ’348 Patent claims priority, to NovaCept.
Hologic is the owner by assignment of the ’348 Patent.
Hologic acquired the ’348 Patent from Cytyc on
January 15, 2016. In May 2004, Cytyc Corporation
(“Cytyc”) acquired NovaCept for $325 million dollars.
In 2007, Hologic acquired Cytyc Corporation.
In 1993, Csaba Truckai co-founded NovaCept, Inc.
(“NovaCept”) Csaba Truckai and others at NovaCept
developed the NovaSure system. NovaCept received
FDA premarket approval for commercial distribution
of the NovaSure system on September 28, 2001.
NovaCept assigned to Cytyc its patent rights including
continuation applications. Hologic markets and sells
the NovaSure system throughout the United States
and in interstate commerce.
Csaba Truckai is a founder of Minerva. Minerva was
founded in 2008. Csaba Truckai was involved in the
development of the Minerva Endometrial Ablation
System (“EAS”). Minerva received FDA premarket
approval for commercial distribution of the Minerva
EAS on July 27, 2015. Minerva began commercial
distribution of the Minerva EAS in August 2015.
Minerva markets and sells the Minerva EAS
October 19, 2009, was a continuation of Application No.
10/959,771, and issued as U.S. Patent No. 8,506,563 (“the ’563
Patent”). Application No. 13/962,178, filed August 8, 2013, was a
continuation of Application No. 12/581,506, and issued as U.S.
Patent No. 9,095,348 (“the ’348 Patent”). The ’520, ’633, ’563, and
’348 Patents all share a common specification. Only the claims of
each are different.

43a
throughout the United States and in interstate
commerce. Both the Minerva EAS and the NovaSure
system are indicated for use on premenopausal women
with menorrhagia (excessive bleeding) due to benign
causes for whom childbearing is complete. The Array
Opening Indicator of the Minerva EAS contains a
Black Indicator Line that can move relative to rows of
black dots depending on the degree of expansion of the
Plasma Formation Array.
Hologic alleges that Minerva infringes its patent in
the use of the Minerva EAS. It alleges that use of the
Minerva EAS, consistent with its instructions for use,
practices each and every step of the method claims of
the ’183 Patent. It asserts that Minerva directly
infringes these claims and induces and contributes to
the infringement by its customers. It further alleges
that Minerva infringes the apparatus claims of the
’348 Patent by making, selling and/or offering to sell
the Minerva EAS in the United States. Also, Hologic
contends that Minerva’s infringement of the Patentsin-Suit has been and continues to be willful.
Minerva denies that it infringes—directly or indirectly (under inducement or contributory infringement)—any of the asserted claims of the Patents-inSuit and denies that infringement, if any, has been
willful. In addition, Minerva asserts an invalidity
defense to the asserted claims. With respect to the ’183
patent, it argues that all the asserted claims of the
Patents-in-Suit are invalid for lack of written
description and lack of enablement under 35 U.S.C.
§ 112.
II.

Minerva’s Motion to Dismiss (D.I. 275)
A.

Background

A threshold issue is Minerva’s motion to dismiss.
Minerva seeks dismissal of Hologic’s claim for

44a
infringement of the ’183 Patent under Federal Rule of
Civil Procedure 12(b)(1) and 12(c). Minerva asserts
that the ’183 Patent claims “should be dismissed as
moot” because “no viable cause of action” remains.
Minerva’s motion is based on a final written decision
of the Patent and Trial Appeals Board (“PTAB”) in an
inter partes review under 35 U.S.C. § 318(a) of the ’183
patent. Minerva contends the PTAB’s decision
extinguishes any cause of action Hologic may have had
with respect to its asserted ’183 patent. Hologic has
appealed the Patent Office’s decision on the ’183
Patent to the Federal Circuit (D.I. 344, Hologic Brief
at 9).
In response, Hologic asserts Minerva is estopped
from contending the patent is invalid by the doctrine
of assignor estoppel. It argues that Minerva profited
from its assignment and subsequent sale of the
intellectual property and cannot disclaim the patent’s
validity. Assignor estoppel is also the subject of one of
Hologic’s motions for summary judgment and will be
discussed below.
B.

Law

A party may move to dismiss for “lack of subjectmatter jurisdiction” under Federal Rule of Civil
Procedure 12(b)(1). The federal courts are courts of
limited jurisdiction. Kokkonen v. Guardian Life Ins.
Co. of Am., 511 U.S. 375, 377, 114 S.Ct. 1673, 128
L.Ed.2d 391 (1994). The court’s power to render
judgment is circumscribed by the Article III
requirement that a live case or controversy exist
throughout all stages of litigation, including appellate
review. United States v. Huff, 703 F.3d 609, 611 (3d
Cir. 2013). This requirement is satisfied when the
parties “continue to have a ‘personal stake in the
outcome’ of the lawsuit.” Id. “When the parties lose
their personal stake in the outcome, the case becomes

45a
moot and must be dismissed, even if it once was a live
controversy at an earlier stage of the proceedings.” Id.
Courts lack subject matter jurisdiction over moot
claims. See Target Training Int’l, Ltd. v. Extended Disc
N. Am., Inc., 645 F. App’x 1018, 1025 (Fed. Cir. 2016)
(“a dismissal for mootness is a dismissal for lack of
jurisdiction.”). In patent cases, the existence of a case
or controversy must be evaluated on a claim-by-claim
basis. U.S.C.A. Const. art. III, § 2, cl. 1; see Streck, Inc.
v. Research & Diagnostic Sys., Inc., 665 F.3d 1269,
1282 (Fed. Cir. 2012).
Under Federal Rule of Civil Procedure 12(c), a party
may move for judgment on the pleadings “[a]fter
pleadings are closed—but early enough not to delay
trial.” When evaluating a motion for judgment on the
pleadings, the court must consider factual allegations
in a complaint in the light most favorable to the nonmoving party. Rosenau v. Unifund Corp., 539 F.3d
218, 221 (3d Cir. 2008). The court may consider
matters of public record as well as authentic documents upon which the complaint is based if they are
attached to the complaint or as an exhibit to the
motion. Oshiver v. Levin, Fishbein, Sedran & Berman,
38 F.3d 1380, 1384 n.2 (3d Cir. 1994).
“When a [patent] claim is cancelled, the patentee
loses any cause of action based on that claim, and any
pending litigation in which the claims are asserted
becomes moot.” Fresenius USA, Inc. v. Baxter Int’l,
Inc., 721 F.3d 1330, 1340 (Fed. Cir. 2013). Under 35
U.S.C. § 141(c), “[a] party to an inter partes review or
a post-grant review who is dissatisfied with the final
written decision of the Patent Trial and Appeal Board”
has a right to appeal to the Federal Circuit. See Pers.
Audio, LLC v. Elec. Frontier Found., 867 F.3d 1246,
1249 (Fed. Cir. 2017), cert. denied, ––– U.S. ––––, 138
S.Ct. 1989, 201 L.Ed.2d 249 (2018). The Patent Office

46a
cannot cancel claims of patents until after appeal. 35
U.S.C. § 318(b) (for inter partes reviews, after “the
time for appeal has expired or any appeal has
terminated,” the Director will “issue and publish a
certificate canceling any claim of the patent finally
determined to be unpatentable”). The Federal Circuit
has held that “a determination of patentability . . .
occur[s] only after all appeals have terminated.”
Bettcher Indus., Inc. v. Bunzl USA, Inc., 661 F.3d 629,
645 (Fed. Cir. 2011) (explaining that a certificate
cancelling patent claims “only happens ‘when the time
for appeal has expired or any appeal proceeding has
terminated’ ”).
C.

Discussion

The court rejects Minerva’s argument that the
PTAB’s final written order on inter partes review
renders this action moot. The patent has not been
cancelled. The PTAB finding is on appeal and does not
have preclusive effect as to this action unless and until
the appeal is resolved. Accordingly, the court finds
Minerva’s motion to dismiss should be denied.
In light of this disposition, the court need not
address Hologic’s assignor estoppel argument in
connection with the motion to dismiss, but will address
the doctrine in Hologic’s motion for summary
judgment. See infra.
III. The Parties’ Motions to Preclude or to Strike
(D.I. 290, 279 and 317)
A.

Background

More preliminary issues are Hologic’s motion to
preclude consideration of certain evidence (D.I. 290),
Minerva’s motion to strike the expert testimony of
Karl Leinsing and Christopher C. Barry (D.I. 279), and

47a
Minerva’s motion to strike the supplemental expert
report of Karl Leinsing (D.I. 317).
Hologic contends the court should exclude the lay
opinion of David Clapper, Minerva’s current CEO and
former CEO of NovaCept, on the issue of market value
for endometrial ablation devices. Further, Hologic
argues the court should exclude invalidity and
infringement opinions of Robert Tucker, M.D. because
they are not based on the court’s claim constructions
and are based on exceedingly narrow characterizations of what he understands the invention to be. It
argues Dr. Tucker’s reliance on an impermissible
claim construction renders his opinions irrelevant and
unreliable and not helpful to the finder of fact. Hologic
also challenges Minerva’s damages expert Blake
Inglish’s apportionment calculations because they are
based entirely on Dr. Tucker’s allegedly flawed opinions. Hologic next challenges Burt Magen’s conclusion
that several prototype Minerva EAS’s handpieces
would not infringe the claims of the ’348 patent.
Hologic argues that Magen’s opinions are not relevant
to any fact at issue since Magen’s opinions relate to
three proposed handpiece designs, none of which are
the accused product. Hologic also argues that Magen
failed to apply the court’s construction of an “indicator
mechanism.” Last, Hologic states that the court should
exclude Dr. Eugene Skalnyi from testifying regarding
facts and opinions not disclosed to Hologic.
In response, Minerva contends Clapper’s testimony
does not relate to any scientific, technical, or other
specialized knowledge that would fall under Federal
Rule of Evidence 702 and is properly admissible under
Rule 701. Minerva also controverts Hologic’s conclusion that Dr. Tucker did not properly apply the court’s
claim construction. Minerva also contends the testimony of Mr. Inglish is proper and should be considered,

48a
further arguing that Mr. Magen’s testimony survives
Hologic’s challenge.
Minerva moves to preclude Leinsing’s opinions on
validity and infringement. It contends Leinsing improperly relied on claim construction legal standards
to render opinions on invalidity for lack of a written
description under § 112. Minerva contends Hologic
fails to apply the relevant authority that rejects a
patentee’s attempt to argue that the specification does
not limit the claims (which is a claim construction
argument) in the context of § 112. See Rivera v. Int’l
Trade Comm’n, 857 F.3d 1315, 1322 (Fed. Cir. 2017).
Hologic, on the other hand, contends that Leinsing
properly considered the claims as construed by the
court and analyzed the disclosure of the Patents-inSuit to conclude that the asserted claims of the
Patents-in-Suit are described and enabled.
Next, Minerva argues Leinsing’s opinions relying on
unreliable and misleading documents should be
excluded, arguing that unverified Internet data, with
no connection to Minerva or its EAS, is not something
an expert would reasonably rely upon to prove
infringement. Minerva is challenging Dr. Leinsing’s
testimony about Bernoulli’s principle, which was
found on a website. In response, Hologic contends that
Leinsing’s opinions are valid because they rely on
documents that confirm the existence of Bernoulli’s
principle and Minerva’s own technical documents.
Last, Minerva challenges Leinsing’s opinions
regarding copying. Hologic argues that Leinsing never
offered an opinion that Minerva’s EAS copied
NovaSure and that Leinsing is entitled to rebut
Minerva’s expert’s opinions on the subject.

49a
B.

Law

Rule 702 of the Federal Rules of Evidence governs
the admissibility of expert witnesses. Rule 702
provides:
A witness who is qualified as an expert by knowledge, skill, experience, training, or education
may testify in the form of an opinion or otherwise
if: (a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of fact to
understand the evidence or to determine a fact in
issue; (b) the testimony is based on sufficient facts
or data; (c) the testimony is the product of reliable
principles and methods; and (d) the expert has
reliably applied the principles and methods to the
facts of the case.
Fed. R. Evid. 702. District court judges are to perform
a screening function with respect to expert testimony.
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509
U.S. 579, 597, 113 S.Ct. 2786, 125 L.Ed.2d 469 (1993).
Daubert requires courts to conduct an inquiry into the
reliability and relevance of the proposed expert testimony. Yazujian v. PetSmart, 729 Fed.Appx. 213, 21416 (3d Cir. 2018). To be admissible, expert testimony
must be connected to the inquiry at hand. Id.; see
Daubert, 509 U.S. at 591–92, 113 S.Ct. 2786.
The Court of Appeals for the Third Circuit identifies
the following non-exhaustive factors to be taken into
consideration when evaluating the reliability of a
particular methodology: (1) whether a method consists
of a testable hypothesis; (2) whether the method has
been subject to peer review; (3) the known or potential
rate of error; (4) the existence and maintenance of
standards controlling the technique’s operation; (5)
whether the method is generally accepted; (6) the
relationship of the technique to methods which have

50a
been established to be reliable; (7) the qualifications of
the expert witness testifying based on the methodology; and (8) the non-judicial uses to which the method
has been put. Elcock v. Kmart Corp., 233 F.3d 734,
745–46 (3d Cir. 2000). The expert’s opinion must be
based on the methods and procedures of science rather
than on subjective belief or unsupported speculation.
In re Paoli R.R. Yard PCB Litig., 35 F.3d 717, 742 (3d
Cir. 1994). Daubert applies to the other expert matters
described in Rule 702, even when the proposed expert
is offering non-scientific, but specialized, testimony.
Kumho Tire Co. v. Carmichael, 526 U.S. 137, 149, 119
S.Ct. 1167, 143 L.Ed.2d 238 (1999).
“The focus, of course, must be solely on principles
and methodology, not on the conclusions that they
generate.” Daubert, 509 U.S. at 595, 113 S.Ct. 2786.
“When the methodology is sound, and the evidence
relied upon sufficiently related to the case at hand,
disputes about the degree of relevance or accuracy
(above this minimum threshold) may go to the
testimony’s weight, but not its admissibility.” i4i Ltd.
P’ship v. Microsoft Corp., 598 F.3d 831, 852 (Fed. Cir.
2010), aff’d, 564 U.S. 91, 131 S.Ct. 2238, 180 L.Ed.2d
131 (2011).
Under Rule 701, on the other hand,
If a witness is not testifying as an expert,
testimony in the form of an opinion is limited to
one that is:
(a) rationally based on the witness’s perception;
(b) helpful to clearly understanding the
witness’s testimony or to determining a fact in
issue; and

51a
(c) not based on scientific, technical, or other
specialized knowledge within the scope of Rule
702.
Fed. R. Evid. 701; see Hirst v. Inverness Hotel Corp.,
544 F.3d 221, 225 (3d Cir. 2008) (“The plain language
of Rule 701 establishes that lay opinion testimony
must satisfy the criteria set forth in subsections (a),
(b), and (c) in order to be admissible.”)
Some evidentiary submissions cannot be evaluated
accurately or sufficiently by the trial judge in the
context of a pretrial motion. Jonasson v. Lutheran
Child and Family Servs., 115 F.3d 436, 440 (7th Cir.
1997). A pretrial motion or motion in limine is
appropriate for “evidentiary submissions that clearly
ought not be presented to the jury because they clearly
would be inadmissible for any purpose.” Id. In other
instances, it is necessary to defer ruling until during
trial, when the trial judge can better estimate the
impact of the evidence on the jury. Id. To the extent
that a party challenges the probative value of the
evidence, an attack upon the probative sufficiency of
evidence relates not to admissibility but to the weight
of the evidence and is a matter for the trier of fact to
resolve. United States v. Beasley, 102 F.3d 1440, 1451
(8th Cir. 1996).
Under 35 U.S.C. § 112, “the written description
inquiry looks to ‘the four corners of the specification’ to
discern the extent to which the inventor(s) had
possession of the invention as broadly claimed.”
Rivera, 857 F.3d at 1322 (quoting Ariad Pharm., Inc.
v. Eli Lilly & Co., 598 F.3d 1336, 1351 (Fed. Cir. 2010)
(en banc ); see also Lockwood v. Am. Airlines, Inc., 107
F.3d 1565, 1571 (Fed. Cir. 1997) (“It is the disclosures
of the applications that count.”). The knowledge of
ordinary artisans may be used to inform what is
actually in the specification, but not to teach

52a
limitations that are not in the specification, even if
those limitations would be rendered obvious by the
disclosure in the specification. Lockwood, 107 F.3d at
1571–72.
C.

Discussion

The court is inclined to believe that Hologic’s
challenges go more to the weight than admissibility of
the evidence. At any rate, the court need not rule on
Hologic’s motion at this juncture because the
challenged evidence is not particularly relevant to the
motions presently under consideration by the court.
The court did not rely on the testimony of any of the
challenged witnesses in making its determination on
the pending motions. Some of the testimony relates
solely to damages and will be addressed via a proper
motion at trial or in limine.
For the most part, the court finds Minerva’s
challenges are similarly in the nature of objections or
are the proper subjects of motions in limine. Minerva’s
arguments go more to the weight than to admissibility
of the challenged evidence. The court disagrees with
Minerva’s characterization of Leinsing’s testimony
with respect to 35 U.S.C. § 112 issues. Leinsing’s
testimony merely relates to the content of the
specifications, not to teaching limitations that are not
in the specifications. Similarly, Minerva’s challenge to
testimony on the Bernoulli principle is similarly unavailing. There is no serious dispute that the principle
is a widely accepted principle of physics and fluid
dynamics that is verified in other testimony and
exhibits. The motions to preclude will be denied at this
time without prejudice to reassertion.
With respect to Minerva’s motion to preclude
opinions on copying and independent development, the
court finds Minerva’s position is misplaced. Minerva

53a
concedes that Leinsing never states that the Minerva
EAS is a copy of the NovaSure system and Minerva’s
own technical expert expressed an opinion similar to
that of Leinsing. (D.I. 292–2, Hologic Ex. 30, Rebuttal
Declaration of Robert Tucker, M.D., ¶ 54.) (“Minerva’s
EAS is not identical to, substantially similar to, or a
copy of the NovaSure, and in fact incorporates
Minerva’s own patentably-distinct technology.”)
Again, the issue is moot for purposes of the present
motion because the court did not consider the
challenged information in connection with its
determination. Accordingly, Minerva’s motion will be
denied, without prejudice to reassertion at trial to the
extent that Leinsing’s testimony remains relevant to
issues in the trial.
Minerva
also
challenges
Hologic’s
expert
Christopher C. Barry’s damages testimony. It
contends he failed to apply the correct lost profits
standards or the correct reasonable royalty standards.
The court is unable to evaluate the relevance of the
challenged evidence in the context of a pretrial motion.
Minerva’s concerns may warrant a cautionary or
limiting instruction, but the court cannot determine
the ambit of such an instruction at this time. The court
will admit the evidence at issue only on a showing that
it is relevant to the issues in the case, is proper under
the law, and only to the extent that the relevance of
the evidence outweighs its potential to cause prejudice
or confusion under Fed. R. Evid. 403. The court finds
the motion can be adequately resolved at trial, either
in a hearing immediately prior to commencement of
the trial, as an objection with a sidebar, or with a
review of the evidence outside the presence of the jury.
Accordingly, the court finds that Minerva’s motion to
preclude expert opinions should be overruled at this

54a
time, without prejudice to its reassertion via timely
objection to the admissibility of such evidence at trial.
Minerva’s also moves to strike the supplemental
expert declaration of Karl Leinsing. (D.I. 317.)
Minerva contends the report is untimely and argues it
has been prejudiced by having prepared and submitted
its opening summary judgment and Daubert briefing
in reliance on the timely Leinsing reports and
deposition, only to be blindsided by new opinions based
on new evidence raised for the first time in the
Supplemental Leinsing Declaration. The court again
finds the evidence is not particularly relevant and
notes that Minerva had an opportunity to respond to
any new information in its reply briefing. Further, the
court notes that Minerva could have moved to reopen
discovery in order to re-depose Leinsing, if necessary.
The court is inclined to agree with Hologic that the
allegedly new information merely elaborates on
Leinsing’s ultimate opinions. The court did not rely on
the new information and finds the motion should be
denied as moot without prejudice to reassertion to the
extent the opinions remain relevant to issues in the
trial.
IV. Motions for Summary Judgment
A.

Hologic’s Motion for Summary Judgment
on Assignor Estoppel (D.I. 289).
1.

Background

In response to Minerva’s motion to dismiss, and in
support of its motion for summary judgment, Hologic
argues that the court should find as a matter of law
that Minerva’s invalidity defenses and counterclaims
are barred by assignor estoppel.
Undisputed evidence shows that Truckai founded
Minerva. He used his expertise to research, develop,

55a
test, manufacture, and obtain regulatory approval for
the Minerva EAS. It is undisputed that Truckai’s job
responsibilities as Minerva’s President and CEO
included bringing the accused product to market to
directly compete with Hologic. Hologic contends the
accused product incorporates the same patented
technology that Truckai’s company sold to Hologic. It
is undisputed that Truckai, an inventor on each of the
Patents-in-Suit, executed broad assignments of his
inventions to NovaCept, which was then sold to
Hologic’s predecessor for $325 million dollars.
Hologic contends that the balance of equities
strongly favor a finding of privity and the application
of assignor estoppel in light of Truckai’s role as
Minerva’s founder, his efforts to invent, develop, test,
and manufacture the accused device, and his broad
executive leadership of Minerva. In essence, it argues
that—more than 19 years after Mr. Truckai executed
his initial patent assignment—Minerva and Truckai
attempt to destroy the value of what Truckai sold to
Hologic so that Minerva can directly compete with
Hologic using the patented technology he already sold
to Hologic.
1.

Law

Assignor estoppel is an equitable doctrine that
prevents one who has assigned the rights to a patent
(or patent application) from later contending that
what was assigned is a nullity. Diamond Sci. Co. v.
Ambico, Inc., 848 F.2d 1220, 1224 (Fed. Cir. 1988)
(recognizing “the implicit representation by the
assignor that the patent rights that he is assigning
(presumably for value) are not worthless . . . . To allow
the assignor to make that representation at the time
of the assignment (to his advantage) and later to
repudiate it (again to his advantage) could work an
injustice against the assignee.”) The doctrine of

56a
assignor estoppel is applied “to prevent unfairness and
injustice.” Id. “[A]n assignor should not be permitted
to sell something and later assert that what was sold
is worthless, all to the detriment of the assignee.”
Diamond, 848 F.2d at 1224. “[A]ssignor estoppel prevents an assignor from asserting that its own patent,
for which it may have received value upon assignment,
is invalid and worthless.” Pandrol USA, LP v. Airboss
Ry. Prod., Inc., 424 F.3d 1161, 1167 (Fed. Cir. 2005).
The Federal Circuit recently reaffirmed the “continued
vitality of the doctrine of assignor estoppel.” Mentor
Graphics Corp. v. EVE–USA, Inc., 851 F.3d 1275, 1283
(Fed. Cir. 2017) (citations omitted).
Assignor estoppel also operates to bar other parties
in privity with the assignor, such as a corporation
founded by the assignor. Diamond, 848 F.2d at 1224.
“Privity, like the doctrine of assignor estoppel itself, is
determined upon a balance of equities.” Shamrock
Techs. Inc. v. Med. Sterilization, Inc., 903 F.2d 789,
793 (Fed. Cir. 1990). “In other words, ‘[i]f an inventor
assigns his invention to his employer company A and
leaves to join company B, whether company B is in
privity and thus bound by the doctrine will depend on
the equities dictated by the relationship between the
inventor and company B in light of the act of
infringement.’ ” Juniper Networks, Inc. v. Palo Alto
Networks, Inc., 15 F.Supp.3d 499, 509 (D. Del. 2014)
(quoting Shamrock Techs., 903 F.2d at 793). “The
closer that relationship, the more the equities will
favor applying the doctrine to company B.” Id.
Status as the founder of a company is generally
“dispositive of the issue of privity.” Juniper Networks,
15 F.Supp.3d at 508; see also Diamond, 848 F.2d at
1224; Synopsis, Inc. v. Magma Design Automation,
Inc., C–04–3923 MMC, 2005 WL 1562779, at *4–5
(N.D. Cal. July 1, 2005); Vitronics Corp. v.

57a
Conceptronic, Inc., No. C-91-696-L, 1992 WL 515321,
at *4–5 (D.N.H. July 20, 1992) (“no question that
privity is established” for founder and executive
officer); Nortel Networks Inc. v. Foundry Networks,
Inc., No. 01-CV-10442-DPW, 2003 WL 26476584, at 8–
9 (D. Mass. March 24, 2003). Assignor estoppel was not
designed to prevent companies from competing for
talented employees; rather, it was intended to prevent
the assignor (whether acting individually or through
another entity) from “making [a] representation [of the
patent’s validity] at the time of assignment (to his
advantage) and later . . . repudiat[ing] it (again to his
advantage).” Acushnet Co. v. Dunlop Maxfli Sports
Corp., No. CIV. A. 98-717-SLR, 2000 WL 987979, at *3
(D. Del. June 29, 2000) (quoting Diamond, 848 F.2d at
1224).
Assignor estoppel generally arises in the context of
an anticipation or obviousness defense. Diamond, 848
F.2d at 1224; see also Babcock v. Clarkson, 63 F. 607,
609 (1st Cir.1894) (stating “[T]he estoppel historically
has applied to invalidity challenges based on ‘novelty,
utility, patentable invention, anticipatory matter, and
the state of the art.’ ”) However, the doctrine has also
been applied with reference to a § 112 defense.
Pandrol USA, LP v. Airboss Ry. Prods., Inc., No. 990182-CV-W-SOW, 2003 WL 24272366, at *1 (W.D. Mo.
Oct. 15, 2003), aff’d, 424 F.3d 1161 (Fed. Cir. 2005).
Assignor estoppel does not limit an assignor’s ability
to defend a subsequent patent suit in ways other than
challenging validity. Mentor Graphics Corp. v.
Quickturn Design Sys., Inc., 150 F.3d 1374, 1379 (Fed.
Cir. 1998). The assignor is permitted to introduce
evidence of prior art to narrow the scope of the
assigned patent’s claims in an effort to show that the
accused device falls outside the scope of the assigned
patent, and assignor estoppel does not preclude the

58a
estopped party from arguing that the patentee is itself
collaterally estopped from asserting a patent found
invalid in a prior proceeding. Id. at 1380. An estopped
party may also argue for a narrow claim construction,
or that the accused devices are within the prior art and
therefore cannot infringe. Id. at 1379–80.
3.

Discussion

Considering the balance of equities and the relationship of Truckai to Minerva, the court first finds privity
between Truckai and Minerva. It is clear that Truckai
executed a broad assignment of his patent rights to
NovaCept and later sold NovaCept to Hologic’s predecessor for $325 million dollars. Minerva does not
seriously dispute those facts. It argues instead that the
doctrine is not applicable to bar a § 112 defense. It
relies on a balance-of-equities argument, contending
Hologic attempts to assert overly broad claims and
therefore keep Minerva’s competing product out of the
market.
The court finds Minerva’s overly broad claims
argument is effectively foreclosed by the court’s
adoption of Hologic’s claim construction. Considering
the balance of equities and the relationship of Minerva
and Truckai, the evidence demonstrates that Truckai
is in privity with Minerva, therefore, assignor estoppel
applies to Minerva’s defenses to Hologic’s patent
infringement claims.
B.

Cross-motions for Summary Judgment on
the Issue of Validity (D.I. 277 and 287)
1.

Background

Minerva contends that all the asserted claims are
invalid for failure to meet the written description and
enablement requirements of 35 U.S.C. § 112. It raises
the same or similar arguments that it raised in

59a
connection with claim construction, again arguing the
distinction between a flow sensor and a pressure
sensor and comparing the Patents-in-Suit to its own
patents for the accused EAS and, in particular, to its
Uterine Integrity Test (UIT). Hologic contends it is
entitled to a summary judgment of “no invalidity,”
arguing that Minerva is not applying the court’s claim
construction in its analysis.
2.

Law

The burden is on the party challenging the validity
of a patent to show invalidity by clear and convincing
evidence. Impax Labs., Inc. v. Aventis Pharma., Inc.,
545 F.3d 1312, 1314 (Fed. Cir. 2008). A patent
specification must contain an adequate written
description. 35 U.S.C. § 112, ¶ 1. Under 35 U.S.C.
§ 112, the specification is required to “contain a
written description of the invention, and of the manner
and process of making and using it, in such full, clear,
concise, and exact terms as to enable any person
skilled in the art . . . to make and use the same.” 35
U.S.C. § 112.
The written description “must clearly allow persons
of ordinary skill in the art to recognize that [the
inventor] invented what is claimed.” Ariad Pharm.,
Inc. v. Eli Lilly & Co., 598 F.3d 1336, 1351 (Fed. Cir.
2010) (en banc) (citation and quotations omitted); see
Streck, 665 F.3d at 1285. The test is whether the
disclosure “conveys to those skilled in the art that the
inventor had possession of the claimed subject matter
as of the filing date.” Id. “This test requires an
‘objective inquiry into the four corners of the
specification from the perspective of a person of
ordinary skill in the art.’ ” Id. (quoting Ariad, 598 F.3d
at 1351. “Given this perspective, in some instances, a
patentee can rely on information that is ‘well-known
in the art’ to satisfy written description.” Id.; see

60a
Boston Sci. Corp. v. Johnson & Johnson, 647 F.3d
1353, 1366 (Fed. Cir. 2011).
“It is well-established that the ‘hallmark of written
description is disclosure.’ ” Streck, 665 F.3d at 1285
(quoting Ariad, 598 F.3d at 1351). “The level of detail
required to satisfy the written description requirement
depends, in large part, on the nature of the claims and
the complexity of the technology.” Id. “ ‘Compliance
with the written description requirement is a question
of fact but is amenable to summary judgment in cases
where no reasonable fact finder could return a verdict
for the nonmoving party.’ ” Id. (quoting PowerOasis,
Inc. v. T–Mobile USA, Inc., 522 F.3d 1299, 1307 (Fed.
Cir. 2008) ).
The claims as filed are part of the specification, and
may provide or contribute to compliance with § 112. Id.
Minutiae of descriptions or procedures perfectly obvious to one of ordinary skill in the art, yet unfamiliar to
laymen, need not be set forth. Hyatt v. Boone, 146 F.3d
1348, 1353 (Fed. Cir. 1998). Missing subject matter in
a description can be shown to be part of the prior art
that would be understood as part of the description of
the subject matter of the count. Id.
There is no requirement that a patent describe the
unclaimed features of the infringing product. See
AbbVie Deutschland GmbH & Co., KG v. Janssen
Biotech, Inc., 759 F.3d 1285, 1301 (Fed. Cir. 2014);
Amgen Inc. v. Hoechst Marion Roussel, Inc., 314 F.3d
1313, 1333 (Fed. Cir. 2003). “[A]n applicant is not
required to describe in the specification every
conceivable and possible future embodiment of his
invention.” Cordis Corp. v. Medtronic AVE, Inc., 339
F.3d 1352, 1365 (Fed. Cir. 2003). “Not every claim
must contain every limitation or achieve every disclosed purpose.” ScriptPro LLC v. Innovation Assocs.,
Inc., 833 F.3d 1336, 1342 (Fed. Cir. 2016).

61a
“Enablement ‘is a legal determination of whether a
patent enables one skilled in the art to make and use
the claimed invention.’ ” Streck, 665 F.3d at 1288
(quoting Hybritech Inc. v. Monoclonal Antibodies, Inc.,
802 F.2d 1367, 1384 (Fed. Cir. 1986) (citation
omitted) ). “To be enabling, a patent’s specification
must ‘teach those skilled in the art how to make and
use the full scope of the claimed invention without
‘undue experimentation.’ ” Id. (quoting ALZA Corp. v.
Andrx Pharm., LLC, 603 F.3d 935, 940 (Fed. Cir. 2010)
(citations omitted) ). It is well-established, however,
that a specification need not disclose what is wellknown in the art. Id.; see Hybritech, 802 F.2d at 1384
(“[A] patent need not teach, and preferably omits, what
is well known in the art.”).
The asserted claims rather than the accused device
must be “enabled” by the patent-in-suit. Edwards
Lifesciences AG v. CoreValve, Inc., C.A. No. 08-91GMS, 2011 WL 446203, at *6 (D. Del. Feb. 7, 2011); see
Durel Corp. v. Osram Sylvania Inc., 256 F.3d 1298,
1306 (Fed. Cir. 2001) ). The enablement requirement
is met if any mode of making and using the invention
is disclosed. See Invitrogen Corp. v. Clontech Labs.,
Inc., 429 F.3d 1052, 1070–71 (Fed. Cir. 2005).
“The enablement requirement is met where one
skilled in the art, having read the specification, could
practice the invention without ‘undue experimentation.’ ” Streck, 665 F.3d at 1288 (quoting In re Wands,
858 F.2d 731, 736–37 (Fed. Cir. 1988) (setting forth the
following factors to consider when determining
whether a disclosure requires undue experimentation:
(1) the quantity of experimentation necessary, (2) the
amount of direction or guidance presented, (3) the
presence or absence of working examples, (4) the
nature of the invention, (5) the state of the prior art,
(6) the relative skill of those in the art, (7) the

62a
predictability or unpredictability of the art, and (8) the
breadth of the claims). “ ‘[I]t is not necessary that a
court review all the Wands factors to find a disclosure
enabling. They are illustrative, not mandatory.’ ” Id.
(quoting Amgen, Inc. v. Chugai Pharm. Co., 927 F.2d
1200, 1213 (Fed. Cir. 1991) ).
3.

Discussion

The court finds Minerva’s invalidity defenses are
barred by assignor estoppel. However, even if Minerva
were not estopped from raising the defense, the court
would find Minerva’s motion for a summary judgment
of invalidity lacks merit.
Minerva’s argument that the Patents-in-Suit had to
provide written description and enablement of the
accused devices plasma formation feature is unavailing. The claims at issue herein do not recite a
plasma formation feature. Minerva’s emphasis on the
accused device and its plasma formation feature
reflects its misguided notion that the improvements
over the claimed material (the plasma formation
feature) would have to have been disclosed. That an
accused product might include other, un-claimed
features does not mean the accused product avoids
infringement.
Similarly, the court rejects Minerva’s argument that
undue experimentation would be required to practice
the invention. Minerva failed to produce evidence that
the experimentation required to create surgical
instruments and methods for use in endometrial
ablation such as those described in the claims of the
Patents-in-Suit would be unduly laborious for one of
ordinary skill in the art. The evidence shows that any
such experimentation would involve repetition of
commonly known or used techniques and application
of techniques well known in the art. Minerva’s expert’s

63a
testimony on the subject does not controvert Hologic’s
testimony that a person of ordinary skill in the art
would have known that a flow sensor could be used as
a pressure sensor. Conclusory expert assertions do not
give rise to a genuine issue of material fact.
The court already rejected Minerva’s argument that
exemplary embodiments define “the invention” and
require a “moisture transport system” with a
“permeable external array” during the claim construction phase. Minerva’s other criticisms for the
descriptions are also directed at exemplary embodiments and raise previously rejected arguments that
would serve to improperly limit that claims.
The court finds Minerva’s Section 112 arguments
rest on a flawed definition of the claims that ignores
the court’s claim constructions. Minerva has not
satisfied its burden of showing invalidity by clear and
convincing evidence. No reasonable jury could find
that Minerva has met its burden of proving by clear
and convincing evidence that the claimed “applicator
head,” “indicator mechanism” and “one or more
electrodes” are not properly described or enabled in the
asserted claims of the Patents-in-Suit. Minerva’s
arguments with respect to undue experimentation
focus on the amount of experimentation necessary to
make Minerva’s EAS, which is not the relevant
enablement analysis.
Hologic, on the other hand has shown that the ’183
and ’348 Patent disclosures adequately describe the
claims as construed by the court. The relevant
enablement analysis is whether the specification
teaches how to make and use a system that performs
the step of monitoring for the presence of a perforation
in the uterus using a device whose input detects,
directly or indirectly, a force per unit area and outputs
a corresponding electrical signal. The patent

64a
disclosure reasonably conveys to a person of ordinary
skill in the art that the inventors had possession of “[a]
distal end portion of an ablation device that applies
energy to the uterine tissue” including “[o]ne or more
electrical conductors” and “[a]n applicator of an
ablation device that delivers energy to the uterine
tissue.”
The court finds no reasonable jury could find that
Minerva can meet its clear and convincing evidence
burden of showing that the claims of the Patents-inSuit do not describe monitoring for the presence of a
perforation in the uterus using a pressure sensor.
Accordingly, the court finds Hologic’s motion for a
summary judgment of no invalidity should be granted
and Minerva’s corresponding motion should be denied.
C.

Minerva’s Motion for Summary Judgment
on the Doctrine of Equivalents and Prosecution History Estoppel. (D.I. 278, Brief at
44–47)
1.

Background

Minerva argues that prosecution history shows that
the Patent Examiner rejected Hologic’s pending claims
as obvious under 35 U.S.C. § 103, and therefore invalid
over prior art in August 2015. In response to the
rejection Hologic, among other things, struck “a
handle coupled to the proximal portion” from pending
claim 19 (later issued as Claim of the ’348 patent), and
replaced it with more detail about the handle
including: “wherein the handle comprises a proximal
grip and a distal grip pivotally attached to one another
at a pivot point.”12 D.I. 278 at 45. Minerva contends
that Hologic elected to narrow the scope of what issued
12 Minerva raises a similar argument with respect to the ’989
Patent, but that Patent is no longer at issue.

65a
as independent claim 1 of the ’348 Patent by adding
the “pivot point” limitation in order to overcome the
prior art rejection and secure the patent, and
accordingly, prosecution history estoppel operates to
foreclose Hologic from relying on the doctrine of
equivalents to allege infringement.
Hologic contends that Minerva seeks an improper
advisory opinion in connection with this argument. It
argues that the device with Minerva’s new pivot
handle is not an accused product because it has not
been commercialized.
2.

Law

The scope of a patent is not limited to its literal
terms but instead embraces all equivalents to the
claims described. Festo Corp. v. Shoketsu Kinzoku
Kogyo Kabushiki Co., 535 U.S. 722, 731, 122 S.Ct.
1831, 152 L.Ed.2d 944 (2002). Prosecution history
estoppel requires that the claims of a patent be
interpreted in light of the proceedings in the PTO
during the application process. Id. at 733, 122 S.Ct.
1831. “Estoppel is a ‘rule of patent construction’ that
ensures that claims are interpreted by reference to
those ‘that have been cancelled or rejected.’ ” Id.
(quoting Schriber–Schroth Co. v. Cleveland Trust Co.,
311 U.S. 211, 220–221, 312 U.S. 654, 61 S.Ct. 235, 85
L.Ed. 132 (1940) ). The doctrine of equivalents allows
the patentee to claim those insubstantial alterations
that were not captured in drafting the original patent
claim but which could be created through trivial
changes. Id. “When, however, the patentee originally
claimed the subject matter alleged to infringe but then
narrowed the claim in response to a rejection, he may
not argue that the surrendered territory comprised
unforeseen subject matter that should be deemed
equivalent to the literal claims of the issued patent.”
Id. “On the contrary, “[b]y the amendment [the

66a
patentee] recognized and emphasized the difference
between the two phrases[,] . . . and [t]he difference
which [the patentee] thus disclaimed must be
regarded as material.’ ” Id. (quoting Exhibit Supply
Co. v. Ace Patents Corp., 315 U.S. 126, 136–137, 62
S.Ct. 513, 86 L.Ed. 736 (1942) ). The Supreme Court
has “ ‘consistently applied prosecution history estoppel
only where claims have been amended for a limited set
of reasons,’ such as ‘to avoid the prior art, or otherwise
to address a specific concern—such as obviousness—
that arguably would have rendered the claimed
subject matter unpatentable.’ ” Id. (quoting Warner–
Jenkinson Co. v. Hilton Davis Chem. Co., 520 U.S. 17,
30–32, 117 S.Ct. 1040, 137 L.Ed.2d 146 (1997).
Estoppel arises when an amendment is made to
secure the patent and the amendment narrows the
patent’s scope. Festo Corp., 535 U.S. at 736, 122 S.Ct.
1831. If a § 112 amendment is truly cosmetic, then it
would not narrow the patent’s scope or raise an
estoppel. Id. at 736–37, 122 S.Ct. 1831. On the other
hand, if a § 112 amendment is necessary and narrows
the patent’s scope—even if only for the purpose of
better description—estoppel may apply. Id. A patentee
who narrows a claim as a condition for obtaining a
patent disavows his claim to the broader subject
matter, whether the amendment was made to avoid
the prior art or to comply with § 112. Id. at 737, 122
S.Ct. 1831. The patentee is regarded as “having
conceded an inability to claim the broader subject
matter or at least as having abandoned his right to
appeal a rejection.” Id.; see O2 Micro Int’l Ltd. v.
Beyond Innovation Tech. Co., 521 F.3d 1351, 1366
(Fed. Cir. 2008) (finding that the “district court erred
in allowing the jury to find infringement under the
doctrine of equivalents” because PHE applied). “Such
argument-based disavowals will be found, however,

67a
only if they constitute clear and unmistakable
surrenders of subject matter.” Cordis Corp. v.
Medtronic Ave, Inc., 511 F.3d 1157, 1177 (Fed. Cir.
2008).
3.

Discussion

Minerva’s motion is directed at the pivot-point
limitation of the ’348 Patent. It argues that “[b]ecause
Hologic elected to narrow the scope of what issued as
independent claim 1 of each of the ’348 and ‘989 by
adding the ‘pivot point’ limitation in order to overcome
the prior art rejection and secure the patent, PHE
forecloses Hologic from now relying on the DOE in
litigation to allege infringement.” The court finds no
clear and unmistakable surrender of all equivalents to
the pivot point limitation. Further, the court is not
convinced that the added detail is more than
tangential to patentability. Notably, the limitation
relates more to the ’989 Patent, which is no longer at
issued, than to the ’348 Patent. Moreover, the court
agrees with Hologic’s position that a ruling on the
purported handle redesign would be an improper
advisory opinion since the product is not being
marketed and is not alleged to be infringing Hologic’s
patent. The court need not address whether Minerva’s
“new” handle design would infringe Hologic’s ’348
Patent because that design is not at issue. Minerva has
not shown it is entitled to summary judgment on the
issue.
D.

Cross–Motions for Summary Judgment on
the Issue of Infringement (D.I. 277 and
288)
1.

Background

Hologic moves for summary judgment in the issue of
infringement, contending that Minerva has failed to
raise a genuine issue of fact to counter the court’s

68a
finding that evidence submitted in preliminary
injunction proceedings supports a prima facie showing
of infringement. It argues that there is no genuine
dispute that the Minerva EAS embodies apparatus
claim 1 of the ’348 Patent. Claim 1 comprises a
preamble and five limitations. Hologic argues that
only the fifth limitation, “an indicator mechanism
configured to indicate a dimension of the uterus” is at
issue and contends that the Minerva “PFA Width
Indicator” is such an indicator mechanism that
measures a dimension of the uterus. Further, it argues
that it is undisputed that Minerva’s EAS infringes the
asserted claims of the ’183 Patent in that it detects
perforations using a pressure sensor.
Minerva contends that a summary judgment of no
infringement is warranted because Hologic cannot
show that Minerva’s UIT meets the court’s
construction of “pressure sensor” for at least two
reasons: (1) the flow sensor’s “input” does not
“detect[ ], directly or indirectly, a force per unit area”;
and (2) its “output” is not “a corresponding electrical
signal,” as the court’s construction requires. It also
contends the UIT does not perform the monitoring step
using a pressure sensor as the claim requires.
Minerva’s arguments are premised on its contention
that Minerva’s flow sensor detects a flow rate—not a
pressure at its input.
In its earlier order, the court stated:
“Pressure sensor.” The specification explains that
“a pressure sensing system” is “fluidly coupled to
the medical device via [a] pressure detection/
signal line” and used to monitor the pressure
within the body cavity. Fluid or gas is delivered to
the body cavity and the pressure sensing system
detects “whether elevated pressure can be maintained above a predetermined threshold level over

69a
a predetermined period of time. If it cannot, the
user is alerted that there may be a perforation in
the organ.” (’183 patent, 2:36–44) The pressure
sensor “monitors pressure in the pressure signal
line . . . and delivers the signal to the microprocessor.” (Id. at 5:23–25) The specification explains
that during testing “[w]hen the pressure at gauge
84 rises and remains above 50 mmHg for 4
seconds, the test has passed.” (Id. at 6:44–46)
(D.I. 127, Memorandum Order at 13–14. The court
went on to find:
Hologic has identified Minerva EAS’ flow meter as
meeting the “pressure sensor” limitation. Minerva
argues that the flow meter does not measure
pressure (differential or otherwise) to operate and
its output is not a pressure measurement. (D.I. 86
at 8–11) Minerva EAS’ operator manual describes
a “uterine integrity test” aimed at detecting
perforations. (D.I. 12, ex. 11 at 9, 33) Minerva’s
expert, Dr. Tucker, testified, “[a]s the pressure
goes down, the flow rate goes up. As the pressure
goes up, the flow rate goes down.” (D.I. 115, ex. 2
at 64:17–20) The design documents for Minerva
EAS state that “if the uterine cavity and the
system is perforation free, gas used to insufflate
the uterine cavity will stop flowing once the gas
pressure in the uterine cavity matches the supply
pressure.” (D.I. 87, ex. 82 at 2337) The court
concludes that the evidence supports a prima
facia showing of infringement.
(Id. at 14) (footnotes omitted).
2.

Law

The patentee has the burden of proving infringement by a preponderance of the evidence. Centricut,
LLC v. Esab Group, Inc., 390 F.3d 1361, 1367 (Fed.

70a
Cir. 2004). Patent infringement and invalidity are two
separate issues. See Medtronic, Inc. v. Cardiac
Pacemakers, Inc., 721 F.2d 1563, 1583 (Fed. Cir. 1983)
(stating that “[t]hough an invalid claim cannot give
rise to liability for infringement, whether it is
infringed is an entirely separate question capable of
determination without regard to its validity.”).
The determination of infringement is a two-step
process: first, the court construes the asserted claims
as a matter of law to determine their meaning, and
second, the trier of fact compares the properly
construed claims to the accused product to determine
whether it contains each limitation of the claims,
either literally or under the doctrine of equivalents.
Ferguson Beauregard/Logic Controls, Div. of Dover
Res., Inc. v. Mega Sys., LLC, 350 F.3d 1327, 1338 (Fed.
Cir. 2003). Application of the claim to the accused
device is a question of fact. Crystal Semiconductor
Corp. v. TriTech Microelectronics Int’l, Inc., 246 F.3d
1336, 1345 (Fed. Cir. 2001). The infringement inquiry
remains focused at all times on the claim language, as
illuminated by the written description and the
prosecution history. Id. at 1345–46. “[I]t is elementary
patent law that a patent may issue on an improvement
which infringes another’s patent.” Water Techs. Corp.
v. Calco, Ltd., 850 F.2d 660, 669 (Fed. Cir. 1988).
Although it has not stated a per se rule, the Federal
Circuit has noted that “relevant expert testimony
regarding matters beyond the comprehension of
laypersons is sometimes essential” to the infringement
inquiry. Centricut, LLC v. Esab Group, Inc., 390 F.3d
1361, 1369–70 (Fed. Cir. 2004) (holding that a
patentee could not withstand summary judgment on
the issue of literal infringement in a case involving
complex technology in the absence of expert
testimony). “ ‘[T]ypically expert testimony will be

71a
necessary in cases involving complex technology.’ ” Id.
at 1370.
3.

Discussion

The court finds that Minerva’s non-infringement
arguments were essentially mooted when the court
rejected Minerva’s erroneous claim constructions.
Minerva’s arguments for non-infringement all depend
on claim construction that is contrary to the court’s
construction. Applying the court’s construction,
Hologic has shown that Minerva’s accused product
infringes the asserted claims of the patents. Minerva’s
non-infringement arguments go to differences in or
additions to its device that are not claimed in the
patents, but are improvements.
The court’s construction of the term “pressure
sensor” in claim 9 of the ’183 Patent as “[a] device
whose input detects, directly or indirectly, a force per
unit area and outputs a corresponding electrical
signal” is determinative. Minerva contends the claim
requires directly detecting a force per unit area.
Nothing in the specification requires the pressure
sensor to measure pressure directly or to convert to a
unit of measure. The undisputed facts show that use
of the Minerva EAS practices the step of monitoring
for the presence of a perforation in the uterus using a
device whose input detects, directly or indirectly, a
force per unit area and outputs a corresponding
electrical signal.
Bernoulli’s equation is a well-known principle of
fluid dynamics that would have been known to persons
of ordinary skill in the art at the time of the invention.
Minerva’s expert conceded that a person of ordinary
skill in the art in 1998 would have known that it was
“just a fundamental law of fluid dynamics” that there
would have to be a pressure differential to generate

72a
flow. The equation describes the physical relationship
between pressure and flow rate and, therefore, it
shows that Minerva’s use of a flow meter involves
“indirectly” detecting pressure. Minerva’s flow sensor,
in conjunction with the orifice, is a pressure sensor
because it indirectly detects pressure via flow rate.
Minerva does not dispute that use of the Minerva
EAS practices all of the remaining limitations of the
asserted claims. No reasonable jury could find that the
remaining steps in the method for ablating a uterus
claimed in the patent—inserting an ablation device,
flowing an inflation medium, and treating the
disorder—are not performed when using the Minerva
EAS. Also, Minerva does not dispute that use of the
Minerva EAS prevents performance of the treating
step until after the monitoring step has been carried
out, as claimed in Claim 7 of the ’183 Patent.
Claim 9 of the ’183 Patent comprises a preamble and
four limitations, only one of which is in serious
dispute—“monitors for the presence of a perforation in
the uterus using a pressure sensor.” Minerva does not
dispute that use of the Minerva EAS practices a
method of detecting a perforation in a uterus or that
use of the Minerva EAS practices the step of “passing
an inflation medium into the uterus” or the steps of
then permitting or preventing the ablation, depending
on detection of a perforation. Minerva’s argument with
respect to monitoring with a pressure sensor is again
precluded by the court’s claim construction. Further,
Minerva does not dispute that practicing the Minerva
EAS includes activating a notification signal alerting
the user to the presence of a perforation in the uterus
included in claim 11 or introducing the inflation
medium using the ablation device as recited in Claim
13 or using an RF ablation device as recited in Claim
14 of the ’183 Patent.

73a
Minerva’s reliance on elements of its device—i.e.,
use of argon gas and plasma energy—to differentiate
its device is unavailing. Those elements are not
claimed by Hologic. Minerva’s argument that Minerva
EAS embodies Minerva’s patent (U.S. Patent No.
8,343,078) is relevant but is not dispositive of the issue
of infringement. National Presto Indus., Inc. v. West
Bend Co., 76 F.3d 1185, 1192 (Fed. Cir. 1996) (stating
“[t]he grant of a separate patent on the accused device
does not automatically avoid infringement, either
literal or by equivalency. Improvements or modifications may indeed be separately patentable if the
requirements of patentability are met, yet the device
may or may not avoid infringement of the prior
patent.”). That an infringer may patent improvements
to an invention does not negate the fact of infringement.
The evidence shows that Minerva has directly
infringed the asserted claims of the ’183 and ’348
Patents by having its paid consultants perform
infringing endometrial ablations in its promotional
videos. Further, it produces operating manuals,
instructions for use, instructional videos, training
materials, and on-site training on how to use the
Minerva EAS that infringes the Patents. Also,
Minerva clearly induces and contributes to
infringement by its customers. Minerva’s customers
infringe by using Minerva’s included components for
their intended purpose consistent with Minerva’s
instructions.
Consistent with the court’s claim construction, the
court finds that undisputed evidence in the record
establishes that Minerva has infringed the asserted
claims of Hologic’s patents. Accordingly, the court
finds that Hologic’s motion for summary judgment on

74a
the issue of infringement should be granted and
Minerva’s corresponding motion should be denied.
E.

Minerva’s Motion for Summary Judgment
on Unfair Competition (D.I. 277)
1.

Background

Minerva moves for summary judgment on Hologic’s
unfair competition claims. Minerva states that all four
of Hologic’s unfair competition claims hinge on the
same theory—i.e., that Minerva’s sales staff
deceptively described Minerva’s EAS as the “new
NovaSure,” “NovaSure 2.0” and/or is from “the makers
of NovaSure.”13 It asserts that Hologic’s claims fail as
a matter of law because Hologic has failed to produce
or elicit any evidence supporting its allegations of
deceptive statements, and cannot establish causation
or harm. Minerva also argues that any allegedly
disparaging comments were mere puffery.
Hologic contends the motion should be denied
because Minerva has not addressed its claim relating
to disparagement. It further argues that it has shown
a likelihood of confusion as a result of Minerva’s
alleged conduct. It argues, at the least, a jury should
resolve the issue of whether there is a likelihood of
confusion.

13 In its amended complaint, in addition to its Lanham Act
claim, Hologic asserted claims for deceptive trade practice under
Delaware statutory and common law alleging Minerva “has
engaged in and continues to engage in conduct that disparages
the prior NovaSure systems” and was likely to cause confusion;
unfair competition under Delaware common law, alleging the
defendant wrongfully interfered with business relationships by
targeting Plaintiffs’ existing customers and disparaging the prior
NovaSure systems and tortious interference with a business
relationship under Delaware common law.

75a
Hologic has presented evidence that Minerva’s
employees obtained Hologic’s confidential and
proprietary data and information and circulated it to
the sales team. There is also evidence that Minerva
employees made allegedly disparaging remarks about
Hologic to potential customers, hired former NovaSure
sales representatives, used misleading sales tactics
and allegedly advised customers to break Hologic
contracts.
2.

Law

Section 43(a) of the Lanham Act, codified at 15
U.S.C. § 1125(a), prohibits false designations of origin,
false descriptions, and dilution. The Act creates “two
distinct bases of liability: false association . . . and
false advertising.” Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 134 S.Ct. 1377, 1384,
188 L.Ed.2d 392 (2014). Subsection (a)(1)(B) forbids
“commercial advertising or promotion” that “misrepresents the nature, characteristics, qualities, or
geographic origin of his or her or another person’s
goods, services, or commercial activities[.]” 15 U.S.C.
§ 1125(a)(1)(B). To prove a violation under the statute,
a plaintiff must prove that it has a valid, protectable
trademark; owns rights to the mark; the defendant
used the mark in interstate commerce; without the
consent of the defendant in a manner that is likely to
cause confusion among ordinary purchasers as to the
source of the product and the defendant’s use of the
mark caused an injury to the plaintiff’s commercial
interest in sales or business reputation. 15 U.S.C.
§ 1125(a)(1)(A); see Lexmark Int’l, Inc. 134 S.Ct. at
1384; Parks LLC v. Tyson Foods, Inc., 863 F.3d 220,
230 (3d Cir. 2017). The Lanham Act’s “likelihood of
confusion” standard is predominantly factual in
nature, making summary judgment inappropriate
when a jury could reasonable conclude that there is a

76a
likelihood of confusion. NTP Marble, Inc. v. AAA
Hellenic Marble, Inc., No. 09-CV-05783, 2012 WL
607975, at *7 (E.D. Pa. Feb. 27, 2012) (same).
The Delaware Deceptive Trade Practices Act
(“DTPA”) prohibits “disparage[ment] of the goods,
services or business of another by false or misleading
representations of fact,” committed “in the course of a
business, vocation, or occupation or that generally
“creates a likelihood of confusion or of misunderstanding.” 6 Del. C. §§ 2532(a)(8) & (a)(12). “The DTPA
has a lower burden of proof than the Lanham Act since
‘a complainant need not prove competition between
the parties or actual confusion or misunderstanding’ to
prevail in an action under the DTPA, 6 Del. C.
§ 2532(b).” Keurig, Inc. v. Strum Foods, Inc., 769
F.Supp.2d 699, 712 (D. Del. 2011). The Act is intended
to address unfair or deceptive trade practices that
interfere with the promotion and conduct of another’s
business. Wright v. Portfolio Recovery Affiliates, No.
CIV.A. 09-612-GMS, 2011 WL 1226115, at *5 (D. Del.
Mar. 30, 2011).
3.

Discussion

The court’s review of the materials submitted in
support of and against Minerva’s motion show that
there are genuine issues of material fact on several
issues essential to resolution of the deceptive trade
practices claims and counterclaims. There are issues
of fact on the nature and extent of alleged misrepresentations and/or disparagement, deception, and the
likelihood of confusion. Resolution of those issues
requires assessments of credibility. Accordingly,
Minerva has not shown it is entitled to summary
judgment on Hologic’s deceptive trade practices
claims. The court finds the motion should be denied.

77a
F.

Minerva’s Motion for Summary Judgment
on Willfulness (D.I. 277)
1.

Background

Minerva contends there are no genuine issues of
material fact on the issue of willful infringement. It
contends the patents did not issue until after Minerva
had developed the accused product and Hologic has not
produced evidence of deliberate copying.
Hologic argues that it does not seek pre-issuance
damages, but is relying on Minerva’s pre-issuance
conduct to support its showing of willful infringement.
It also argues that there are genuine issues of fact on
issues of copying, knowledge, investigation, and good
faith.
2.

Law

Enhanced damages under 35 U.S.C. § 284 “are not
to be meted out in a typical infringement case, but are
instead designed as a ‘punitive’ or ‘vindictive’ sanction
for egregious infringement behavior.” Halo Elecs., Inc.
v. Pulse Elecs., Inc., ––– U.S. ––––, 136 S.Ct. 1923,
1932, 195 L.Ed.2d 278 (2016). The award of enhanced
damages is limited to egregious cases of misconduct
beyond typical infringement. Id. at 1935. “As with any
exercise of discretion, courts should continue to take
into account the particular circumstances of each case
in deciding whether to award damages, and in what
amount.” Id. at 1933.
The subjective willfulness of a patent infringer,
intentional or knowing, may warrant enhanced
damages, without regard to whether his infringement
was objectively reckless. Id. at 1933; see WesternGeco
L.L.C. v. ION Geophysical Corp., 837 F.3d 1358, 1362
(Fed. Cir. 2016) (stating “Halo emphasized that
subjective willfulness alone—i.e., proof that the

78a
defendant acted despite a risk of infringement that
was ‘either known or so obvious that it should have
been known to the accused infringer,’—can support an
award of enhanced damages” (quoting Halo, 136 S.Ct.
at 1930)(internal citations omitted) ).
“ ‘[W]hether an act is ‘willful’ is by definition a
question of the actor’s intent, the answer to which
must be inferred from all the circumstances.” WCM
Indus., Inc. v. IPS Corp., 721 F. App’x 959, 970 (Fed.
Cir. 2018) (quoting Gustafson, Inc. v. Intersystems
Indus. Products, Inc., 897 F.2d 508 (Fed. Cir. 1990) ).
There is no per se rule that a finding of willful
infringement cannot stand whenever manufacture of
an accused device begins prior to the issuance of a
patent, instead courts must look to the totality of the
circumstances presented in the case. Id.; see also
ACCO Brands, Inc. v. ABA Locks Mfrs., 501 F.3d 1307,
1312 (Fed. Cir. 2007) (noting that the willfulness
inquiry is one of fact and “is determined from the
totality of the circumstances.”).
3.

Discussion

The court finds there are genuine issues of fact with
respect to willfulness. There is evidence from which a
jury could find Minerva acted despite a risk of
infringement that was either actually known or was so
obvious that it should have been known to Minerva.
Resolution of the issue involves a determination of
intent and credibility. These are issues for the factfinder. Accordingly, the court finds Minerva’s motion
for summary judgment should be denied.
An appropriate order will issue this date.

79a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2019-2054, 2019-2081
————
HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs-Appellants,
v.
MINERVA SURGICAL, INC.,
Defendant-Cross-Appellant.
————
Appeals from the United States District Court
for the District of Delaware in
No. 1:15-cv-01031-JFB-SRF,
Senior Judge Joseph F. Bataillon.
————
ON PETITIONS FOR PANEL REHEARING
AND REHEARING EN BANC
————
NOTE: This order is nonprecedential.
————
Before PROST, Chief Judge, NEWMAN, LOURIE,
CLEVENGER*, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, HUGHES, and STOLL,
Circuit Judges.
* Circuit Judge Clevenger participated only in the decision on
the petitions for panel rehearing.

80a
————
PER CURIAM.
————
ORDER
————
Cross-Appellant Minerva Surgical, Inc. filed a
combined petition for panel rehearing and rehearing
en banc. Appellants Hologic, Inc. and Cytyc Surgical
Products, LLC separately filed a petition for rehearing
en banc. Responses to both petitions were invited by
the court and filed by the parties. The petitions were
referred to the panel that heard the appeal, and
thereafter the petitions for rehearing en banc were
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied.
The petitions for rehearing en banc are denied.
The mandate of the court will issue on July 29, 2020.
FOR THE COURT:
July 22, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

